     Social Security Administration
      Office of the Inspector General

Semiannual Report to Congress
       October 1, 2007 – March 31, 2008
Social Security Administration
Office of The Inspector General




                                                                                         How to Report Fraud
                                                                       The SSA OIG Fraud Hotline offers a means for you to provide
                                                                      information on suspected fraud, waste, and abuse. If you know of
                                                                      current or potentially illegal or improper activities involving SSA
                                                                      programs or personnel, we encourage you to contact the SSA OIG
                                                                                                 Fraud Hotline.

                        Mission Statement
      By conducting independent and objective audits, evaluations                Call	    1-800-269-0271
         and investigations, we inspire public confidence in the
        integrity and security of SSA’s programs and operations                Write	     Social Security Administration
          and protect them against fraud, waste and abuse. We         	                   Office of the Inspector General
      provide timely, useful and reliable information and advice to   	                   Attention: SSA Fraud Hotline
           Administration officials, Congress and the public.         	                   P. O. Box 17768
                                                                      	                   Baltimore, MD 21235
                        Vision and Values
                                                                                 Fax	     410-597-0118
        We strive for continual improvement in SSA’s programs,
      operations and management by proactively seeking new ways
        to prevent and deter fraud, waste and abuse. We commit               Internet www.socialsecurity.gov/oig
        to integrity and excellence by supporting an environment
        that provides a valuable public service while encouraging     To obtain additional copies of this report please visit our web site
      employee development and retention and fostering diversity                        at www.socialsecurity.gov/oig
                             and innovation.


                                                                                              SSA Pub. No. 85-007
                                                                 Semiannual Report to Congress




 A Message from the Inspector General
 This year, the Inspector General community marks
 its 30th year of service under the Inspector General
 Act of 1978, which established our offices as an
 independent and objective means of maintaining
 public accountability and increasing transparency in
 the Executive Branch. Since its inception in 1995,
 the Social Security Administration Office of the
 Inspector General has never lost sight of this core
 mission, developing new and innovative approaches to
 long-standing problems—and informing public policy
 decision-making to avoid new ones.
 Nevertheless, we have as our unique challenge oversight
 of the largest social insurance program in the world,
 serving more than 50 million people annually. This office strives to assess the Agency’s ability to
 provide timely and accurate customer service, while at the same time ensuring good stewardship
 of taxpayer funds.
 This delicate balancing act has taken on a new urgency as my office, along with SSA and
 Congress, wrestle with how best to reduce a growing backlog of appealed disability claims. In
 February 2008, I testified before a subcommittee of the House Appropriations Committee on
 this issue, describing our initiatives focused on this vexing problem—and many of those are
 detailed within this report. We have conducted reviews and audits of SSA’s disability program
 structure and operations, making recommendations for changes. Moreover, our Cooperative
 Disability Investigative Program continues to be an important part of the solution by assisting
 disability examiners and administrative law judges in making accurate claims decisions.
 The key to my office’s ability to effectively address this and all of our many initiatives has been
 a cadre of talented and knowledgeable employees, and I would like to express my gratitude to
 them for their unwavering dedication to the mission. Finally, I must express my appreciation
 to our partners in the Social Security Administration and the Congress for their support and
 cooperation in our continued efforts to serve the American public by improving and protecting
 Social Security programs for future generations.



 S
 Patrick P. O’Carroll, Jr.
 Inspector General




October 1, 2007 — March 31, 2008                              Message from the Inspector General       
    Semiannual Report to Congress




                                   October 1, 2007 — March 31, 2008
                                                                                 Semiannual Report to Congress




                   Social Security Administration
                   Office of the Inspector General


                                           n
      Contents
         A Message from the Inspector General......................... 1
         Executive Summary................................................................5
         Introduction to Our Organization............................... 6
         Impact..........................................................................................8
         Value......................................................................................... 19
         People........................................................................................29
         Reporting Requirements and Appendices..................... 35
         Glossary of Acronyms......................................................... 53




October 1, 2007 — March 31, 2008                                                                                 
    Semiannual Report to Congress




                                   October 1, 2007 — March 31, 2008
                                                                 Semiannual Report to Congress




Executive Summary                                 Our audit work over the past 6 months
                                                  includes a review of SSA’s administrative
With this report, the Social Security             law judges’ (ALJ) caseload performance to
Administration (SSA), Office of the               measure its impact on the projected hearing
Inspector General (OIG) proudly presents          requests over the next 5 years. In addition,
its accomplishments from October 1, 2007 –        in an ongoing effort to improve the integrity
March 31, 2008. The sections of this report       of the Social Security number (SSN), our
correspond to the three major goals—              auditors reviewed the effectiveness of SSA’s
impact, value, and people—set forth in            internal controls for issuing SSN Verification
the OIG Strategic Plan: Fiscal Years 2006         Printouts, a process intended to allow
– 2010. Highlights of our many noteworthy         numberholders to obtain documentation
achievements in audit, investigations,            of their SSNs. Our auditors also followed
and legal counsel appear in each of these         up on a previously issued audit to assess the
categories as follows.                            Enumeration at Entry process.

Impact                                            Value
We work to have a positive impact on SSA          Our organization strives to provide valuable
programs and operations by enhancing              products and services in a timely manner
their integrity, efficiency, and effectiveness.   to Congress, SSA and other key decision-
Toward this goal, we received more than           makers while sustaining a positive return
52,000 allegations from SSA employees,            for each tax dollar invested in OIG activities.
the Congress, the public, law enforcement         During this reporting period, our auditors
agencies, and other sources during the            identified more than $630 million in
first half of Fiscal Year (FY) 2008. During       questioned costs and over $309 million in
this period, our agents closed more than          Federal funds that could be put to better
5,400 criminal investigations, with over          use. Highlighted audits include a review
1,000 arrests, over 600 indictments and           of SSA’s effectiveness in verifying income
informations, and more than 1,100 criminal        and resources for individuals applying for
prosecutions, and civil monetary penalty          the new Medicare Part D prescription
(CMP) assessments. Our Cooperative                drug program, and an assessment of SSA’s
Disability Investigative (CDI) Program            ability to effectively adjust monthly benefits
continues to be one of our most successful        for beneficiaries who were entitled to both
initiatives, contributing to the integrity        retirement and disability benefits before full
of SSA’s disability programs. During this         retirement age.
reporting period, the efforts of our CDI
                                                  In the first half of FY 2008, we are
Units resulted in more than $106 million
                                                  reporting over $200 million in investigative
in SSA program savings.
                                                  accomplishments, with over $38 million in
Our auditors also had a significant impact        SSA recoveries, restitution, fines, settlements,
during this reporting period, issuing 40          and judgments; and over $162 million
reports and making recommendations on a           in projected savings from investigations
wide variety of challenges facing the Agency.     resulting in the suspension or termination of


October 1, 2007 — March 31, 2008                                                      Executive Summary  •  
         Semiannual Report to Congress




            benefits. In addition, we participated in multi-      dedication to our core mission of inspiring
            agency investigations that resulted in over $18       public confidence by detecting and preventing
            million in savings, restitution, and recoveries       fraud, waste, and abuse in SSA’s programs and
            for other agencies. Highlighted investigations        operations. We will continue to work with
            in this section revealed evidence of disability       our partners in SSA, the Congress, and other
            program fraud, representative payee fraud, and        Federal agencies to ensure the integrity and
            SSN misuse.                                           reliability of the Social Security programs
                                                                  upon which so many Americans depend for
            During this reporting period, our attorneys           their economic security.
            initiated 273 CMP actions (Section 1129
            cases) that involved false statements or
            representations made in connection with
            obtaining or retaining benefits or payments
            under Titles II and XVI of the Social Security
            Act (the Act). Included in our investigative
                                                                      o
                                                                  Introduction to Our
            accomplishments above is over $3 million in
            penalties and assessments that our attorneys          Organization
            imposed through our CMP program.
                                                                  The SSA OIG comprises the Immediate
                                                                  Office of the Inspector General and four
            People                                                major components: the Offices of Audit,
            The collective effort of our employees                Investigations, Resource Management, and the
            continues to be the driving force behind this         Chief Counsel to the Inspector General.
            organization’s success in meeting its mission.        Immediate Office of the Inspector
            We provide an encouraging and rewarding
            work experience with the goal of retaining            General (IO)
            these exceptional individuals. OIG leadership
                                                   IO provides the Inspector General with
            fosters an environment where employees can
                                                   staff assistance on the full range of his
            realize their potential through training and
                                                   responsibilities. IO staff provides liaison
            developmental programs. Each year, OIG with all agencies sharing common interests
            components convene training conferences to
                                                   with OIG and ensures coordination with
            inform their employees about new procedures
                                                   Congressional committees, SSA, the Social
            at various levels of our organization. In addition,
                                                   Security Advisory Board, and the President’s
            the OIG Organizational Health CommitteeCouncil on Integrity and Efficiency. IO also
            assesses employee satisfaction levels and
                                                   includes the Office of Quality Assurance and
            addresses employee concerns. Further during
                                                   Professional Responsibility (OQAPR), which
            this reporting period, the OIG implemented
                                                   is responsible for two critical functions. First,
            its first Leadership Development Program to
                                                   it conducts exhaustive reviews of each of the
            prepare qualified OIG employees for future
                                                   OIG’s component offices to ensure compliance
            leadership positions.                  with Federal laws and regulations, Agency
                                                   policies, and relevant professional standards.
            As is reflected in our significant OQAPR also conducts thorough and timely
            accomplishments, we never waver in our



  •  Executive Summary                                                   October 1, 2007 — March 31, 2008
                                                                 Semiannual Report to Congress




investigations should allegations of misconduct    audit and investigative material. In addition,
be lodged against an OIG employee.                 OCCIG manages OIG’s external and public
                                                   affairs program, preparing OIG publications
Office of Audit (OA)                               and handling Congressional, media, and
OA conducts and supervises financial and           public requests for information.
performance audits of SSA programs and
operations, and makes recommendations to           Office of Resource
ensure that program objectives are achieved        Management (ORM)
effectively and efficiently. Financial audits      ORM provides administrative and management
determine whether SSA’s financial statements       support to the Inspector General and OIG
fairly present SSA’s financial position, results   components. ORM formulates and executes
of operations, and cash flow. Performance          the OIG budget and confers with the Office of
audits review the economy, efficiency,             the Commissioner, the Office of Management
and effectiveness of SSA’s programs and            and Budget (OMB) and the Congress on
operations. OA also conducts short-term            budget matters. ORM is responsible for
management and program evaluations, and            strategic planning and performance reporting,
other projects on issues of concern to SSA,        and facility and property management. ORM
the Congress, and the general public.              develops and maintains OIG’s administrative
                                                   and management policy and procedures, and
Office of Investigations (OI)                      performs all human resource support activities
OI conducts and coordinates investigative          for OIG. ORM also plans, designs, develops,
activity related to fraud, waste, abuse, and       tests, implements, and maintains hardware,
mismanagement in SSA programs and                  software, and telecommunications networks
operations. This includes wrongdoing by            to support OIG’s mission.
applicants, beneficiaries, contractors, and
third parties, as well as by SSA employees
while performing their official duties. This
office serves as OIG’s liaison to the DOJ on
all matters relating to the investigation of SSA
programs and personnel. OI also conducts
joint investigations with other Federal, State,
and local law enforcement agencies.
Office of the Chief Counsel to
the Inspector General (OCCIG)
OCCIG provides independent legal advice
and counsel to the Inspector General on a
wide range of issues, including statutes,
regulations, legislation, and policy directives.
OCCIG administers the CMP program, and
advises the Inspector General on investigative
procedures and techniques, as well as on legal
implications and conclusions to be drawn from


 October 1, 2007 — March 31, 2008                                   Introduction to Our Organization  •    
         Semiannual Report to Congress




            Impact                                         caseload performance of some ALJs if their
                                                           current performance levels continue. In FY
            The first goal of the OIG Strategic Plan is 2006, fully available ALJs processed an average
            Impact. We are committed to enhancing of 485 cases for the year, ranging from a low
            SSA’s effectiveness and efficiency through of 40 to a high of 1,805. There is currently no
            our investigative, audit and legal activities. official minimum number of cases an ALJ is
            Through our best efforts, we strive to have required to process.
            maximum impact on SSA’s programs and
                                                           Based on our analysis, at the FY 2006
            operations to ensure their continued integrity
                                                           production level, ODAR would not be able
            and reliability.
                                                           to process all of the projected hearing requests
            During this reporting period, we completed over the next 5 years. We estimated that if
            numerous audits, investigations, and legal ALJs continue to process cases at the FY 2006
            initiatives covering major SSA program and level, and the number of fully and partially
            management areas, which had a significant available ALJs remains the same, the backlog
            impact on the detection and prevention of will increase by about 150,000 cases by FY
            fraud, waste, and abuse. The summaries 2012. However, if fully available ALJs were
            presented below are indicative of our work to perform at the production levels of 500 to
            over the past 6 months.                        550 cases, ODAR would be able to process
                                                           all hearing requests and reduce the backlog
            Audit Impact Initiatives                       through FY 2012.
                                                            We recommended, and SSA agreed, that
            OA contributes to this strategic goal by
                                                            it should (1) establish an ALJ performance
            conducting and supervising comprehensive
                                                            accountability process based on availability;
            financial and performance audits and by
                                                            (2) assess offices’ caseload performance and
            making recommendations to maximize
                                                            take appropriate corrective actions; and
            the effective operations of Social Security
                                                            (3) evaluate caseload management procedures
            programs. These audits, along with short-term
                                                            and share best practices among regions.
            management and program evaluations, focus
            on those SSA programs and activities most       SSN Protection: Controls for Issuing
            vulnerable to fraud and abuse.                  SSN Verification Printouts
            SSA Operations: Administrative Law             Under the Privacy Act, SSA must make
            Judges’ Caseload Performance                   an SSN Verification Printout available to
                                                           numberholders who request one. In this audit,
            This audit evaluated the effect of varying
                                                           we assessed the effectiveness of SSA’s internal
            levels of ALJs’ caseload performance on the
                                                           controls over this process. We interviewed
            Office of Disability Adjudication and Review’s
                                                           officials from 42 SSA field offices, and we
            (ODAR) ability to process projected hearing
                                                           visited 21 of those offices to observe the SSN
            requests and address SSA’s growing backlog
                                                           printout issuance process. We also reviewed
            of pending disability claims. We found that
                                                           Federal laws and SSA regulations and policies,
            ODAR’s ability to accomplish these goals
                                                           and we analyzed transaction data of some
            will continue to be negatively impacted by the



   •  Impact                                                        October 1, 2007 — March 31, 2008
                                                              Semiannual Report to Congress




of the 6.3 million SSN printouts issued in In this audit, we assessed the effectiveness of
FY 2006.                                       the EAE process and determined the status
                                               of corrective actions SSA has taken to address
Based on our review, we believe the Agency recommendations in our March 2005 report,
should strengthen controls for issuing SSN Assessment of the Enumeration at Entry
printouts. Our review found that an SSN Process.
printout is treated by some third parties as
equal or superior to a Social Security card We found that SSA took action on six of the
in verifying a person’s identity. However, the seven recommendations from our previous
SSN printout issuance process lacks adequate review, but that some of the weaknesses we
controls to ensure the requestor’s identity identified in 2005 continue. We estimate
before releasing this sensitive, personally that SSA assigned 2,116 multiple SSNs
identifiable information. Additionally, to immigrants through EAE during our
there are no limits on the number of SSN 6–month audit period. This figure represents
printouts that an individual can obtain in about 5 percent of the 44,084 original SSNs
a year or a lifetime, as there are for Social the Agency assigned to EAE applicants during
Security cards. We determined that over that time. Immigrants continued to apply for
55,000 numberholders obtained three or SSNs both through EAE and at field offices,
more SSN printouts during FY 2006. Our resulting in a duplication of effort for SSA;
review further found that SSA managers have and the Agency’s systems could not process
little information to monitor and control the 16,053 (11 percent) of the 147,422 EAE
number of SSN printouts issued.                records SSA received in FY 2007 because of
                                               data compatibility issues.
We recommended, and SSA agreed, to (1)
clarify SSA policies and the SSN printout SSA agreed with our recommendations to
language; and (2) extend outreach to third (1) conduct random reviews of enumeration
parties to raise awareness of SSA’s SSN feedback message resolutions and take
verification services. SSA also agreed to appropriate measures to improve field office
track actions taken to issue SSN printouts. performance; (2) periodically assess the EAE
SSA disagreed with our recommendation to process to determine whether immigrants
remind staff to issue printouts only when the continue to apply for SSNs through both
numberholder expresses an immediate need. EAE and field offices; and (3) work with the
                                               Department of State and DHS regarding
SSN Protection Follow-Up: Assessment           data compatibility problems, and review and
of the Enumeration at Entry Process            correct pending EAE applications. In addition,
The Enumeration at Entry (EAE) process SSA agreed to consider collection of alien
allows lawfully admitted permanent residents registration numbers for a future release of the
to apply for an SSN on the Department Social Security number application process.
of State’s Form DS 230, Application for
Immigrant Visa and Alien Registration. Once
the Department of Homeland Security (DHS)
admits the immigrant, it sends SSA certain
data elements needed for SSN assignment.


October 1, 2007 — March 31, 2008                                                                Impact  •  
          Semiannual Report to Congress




          Congressional Response Report:                     SSA Operations: SSA’s Ability to Reach
          Unimplemented Audit Recommendations                Individuals Using the Social Security
          Since January 2001                                 Statement
          In a December 7, 2007 letter, the Honorable        SSA sends an annual Social Security Statement
          Henry Waxman, Chairman of the Committee            to all eligible individuals, informing them of
          on Oversight and Government Reform, House          their annual posted earnings and providing
          of Representatives, asked that we provide a        benefit estimates. We conducted this audit to
          list of recommendations made by SSA OIG            review SSA’s ability to reach individuals using
          from January 1, 2001 to the present that have      the Statement.
          not been implemented by Agency officials.
                                                              In FY 2006, SSA reported that over 145 million
          We requested status information from SSA’s
                                                              Statements were mailed to eligible wage earners
          Office of Budget, Finance, and Management,
                                                              and estimated that 5 million of those were
          Audit Management and Liaison Staff, which is
                                                              returned. SSA also reported that the Internal
          responsible for SSA’s audit management liaison
                                                              Revenue Service (IRS) could not provide
          activities with the Government Accountability
                                                              addresses for 21 million individuals. We
          Office and the OIG.
                                                              reviewed records for wage earners (1) for whom
          From January 1, 2001 to January 4, 2008, SSA could not obtain a current address; and
          we performed 711 audits, presenting 2,440 (2) whose Statements were returned to SSA as
          recommendations to SSA. We found that SSA undeliverable.
          had not implemented 497 (20 percent) of the
          2,440 recommendations. Of the 497, SSA had Although some of the reasons individuals do not
          agreed to 275 (55 percent). For the remaining receive a Statement are beyond SSA’s control,
          222  recommendations, SSA disagreed, partially we found that SSA’s current process does not
          agreed, or a response is still pending. The largest ensure that all wage earners receive a Statement.
          number of high priority recommendations that First, Statements mailed to foreign addresses
          remain unimplemented relate to SSN protection often do not reach the intended recipients due to
          and systems security and critical infrastructure incomplete address information provided by the
                                                              IRS. In addition, we found that: some “Address
          protection.
                                                              Unknown” individuals had recent contact with
          Since 2001, we have met or exceeded our SSA; some low-income wage earners were not
          performance goal of achieving Agency agreement receiving Statements; and SSA mail operations
          on 85 percent of our recommendations. were not maintaining accurate workload reports.
          As evident by the acceptance rate, we have Finally, we believe SSA’s estimate of 5 million
          maintained a good working relationship returned Statements is low.
          with SSA. Furthermore, the Agency’s
          implementation of approximately 79 percent SSA agreed with all of our recommendations,
          of our recommendations reflects management’s including that SSA: (1) change or discontinue the
          responsiveness and commitment to addressing process of delivering Statements to individuals in
          the management challenges facing the Agency. foreign countries; (2) avoid mailing Statements
          Some delays surrounding implementation are with incomplete addresses; (3) account more
                                                              accurately for Statements that are returned as
          the result of limited available resources.
                                                              undeliverable; and (4) evaluate allowing online
                                                              access to the Statement.


10   •  Impact                                                          October 1, 2007 — March 31, 2008
                                                                 Semiannual Report to Congress




Investigative Impact Initiatives
OI examines and investigates allegations of
fraud, waste, abuse, and mismanagement
in SSA programs and operations. These
allegations may involve benefit fraud, SSN
misuse, violations by SSA employees, or
fraud related to grants and contracts. Our
investigations often result in criminal or civil
prosecutions and the imposition of CMPs
against offenders. These investigative efforts
impact SSA program integrity by deterring
those contemplating fraud against SSA in
the future. Our work in the areas of program
fraud, enumeration fraud, SSN misuse, and
employee misconduct ensures the reliability of
SSA programs and their future operations.



             Investigative Results
                (10/01/07– 3/31/08)
           Allegations Received           52,381
                 Cases Opened              5,122
                  Cases Closed             5,417
                        Arrests            1,078
     Indictments/Informations                695
          Criminal Prosecutions1             946
                     Civil/CMPs              221




1
 The number of convictions in Federal, State, local, or foreign courts, and convictions under the
Uniform Code of Military Justice, including cases resulting in a pretrial diversion agreement.
We have altered our reporting of Investigative Results to align ourselves with the terminology
and definitions utilized by the President’s Council on Integrity and Efficiency. The table above
reflects these changes


October 1, 2007 — March 31, 2008                                                                    Impact  •  11
          Semiannual Report to Congress




                                               Cases Opened by Program Category
                                                     10/01/2007 – 03/31/2008




                                           Employee Related          Other
                                                1.39%                0.76%
                                                                                      Social Security Number
                                                                                              8.04%



                   Title XVI-Disability
                         43.01%

                                                                                                                      Title II-Disability
                                                                                                                           33.03%




                                                          Title XVI-Aged                     Title II-Retirement
                                                               2.79%                                10.97%




                                                   Cases Closed by Program Category
                                                        10/01/2007 – 03/31/2008




                                              Employee Related         Other
                                                   1.44%               0.78%                     Social Security Number
                                                                                                         10.17%



                    Title XVI-Disability
                          39.15%




                                                                                                                      Title II-Disability
                                                                                                                           29.55%
                                  Title XVI-Aged
                                       2.18%
                                                                           Title II-Retirement
                                                                                  16.74%




12   •  Impact                                                                                    October 1, 2007 — March 31, 2008
                                                            Semiannual Report to Congress




                          Allegations Received by Source
                                     (10/01/07 – 3/31/08)


                                   Law Enforcement              20,092

                                    SSA Employees               12,874

                                    Private Citizens             8,537

                                       Anonymous                 6,293

                                             Other               2,979

                                       Beneficiaries             1,000

                                    Public Agencies                606

                                           TOTAL                52,381


                         Allegations Received by Category
                                     (10/01/07 – 3/31/08)


                                       SSI Disability           20,488

                               Disability Insurance             18,134

                                                SSN              5,785

                       Old-Age, Survivors Insurance              3,364

                                               Other             2,716

                                           Employee              1,430

                                           SSI Aged                464

                                            TOTAL               52,381


October 1, 2007 — March 31, 2008                                                      Impact  •  13
          Semiannual Report to Congress




                 Employee Fraud: SSA Employee Fails to            The employee pled guilty to conspiracy and
                 Disclose Employment to HUD                       accessing a protected computer to conduct
                                                                  fraud. She was sentenced in December 2007 to
                 Acting on a referral from the Department of      5 years’ probation, 12 months’ home detention,
                 Housing and Urban Development (HUD)              and 200 hours of community service. She was
                 OIG, our San Francisco office investigated       also ordered to pay restitution of $424,214
                 an SSA employee for failing to disclose her      to several banks, and was banned from
                 employment to HUD. Between April 1997            employment in any position where she has
                 and November 2006, the employee completed        access to confidential personal data such as
                 applications and intentionally withheld          SSNs or driver’s license numbers. SSA has
                 information regarding her SSA employment         terminated the employee.
                 in order to obtain HUD Section 8 housing
                 subsidies. The employee received $64,452 in Bankruptcy Fraud Project: Woman Files
                 subsidies to which she was not entitled.    12 Bankruptcy Petitions
                 The SSA employee pled guilty to theft of        Our Memphis office opened an investigation
                 Government property. She was sentenced in       based on a referral from the United States
                 January 2008 to 6 months’ home detention        Attorney’s Office (USAO) for the Western
                 and 3 years’ probation, and was ordered to pay  District of Tennessee. The referral indicated
                 full restitution to HUD. SSA has indefinitely   that a woman had filed Federal bankruptcy
                 suspended the employee.                         petitions using SSNs not assigned to her. A
                                                                 review of bankruptcy records determined that
                 Employee Fraud: SSA Employee                    she had filed 12 bankruptcy petitions since
                 Involved in Credit Card Fraud Ring              1997. Our investigation further revealed that
                 Our Los Angeles office investigated an SSA between March 2003 and August 2005, the
                 employee for selling information from SSA woman used five SSNs assigned to other
                 records. This investigation was based on individuals to file bankruptcy. The woman
                 a request from a credit card agency, which also failed to disclose any of the prior petitions
                 provided SSA with a list of several hundred when filing.
                 compromised SSNs. Our investigation In January 2008, after pleading guilty to
                 revealed that one SSA employee had accessed bankruptcy fraud, the woman was sentenced to
                 the records associated with a majority of these 2 years’ supervised release, and was ordered to
                 compromised SSNs. We further determined pay restitution of $3,800 to a private citizen.
                 that the SSA employee was paid by an
                 accomplice to obtain additional identifying
                 information associated with specific SSNs Fugitive Felon Program
                 and names. The accomplice then sold the The OIG’s Fugitive Felon Program identifies
                 information to individuals who opened fugitive felons and parole and probation
                 fraudulent credit card accounts. Several credit violators through automated data matches
                 card companies and banks were victims of this between SSA’s beneficiary rolls and Federal
                 scheme, which caused an estimated fraud loss and State warrant databases. The impact of
                 of $2.5 million.                                this program reaches beyond Social Security



14   •  Impact                                                            October 1, 2007 — March 31, 2008
                                                                   Semiannual Report to Congress




to local communities across the United States.      67-year-old Title II retirement beneficiary
Our data-sharing efforts with local, State, and     without incident in January 2008. The man
Federal law enforcement agencies contributed        was wanted for failure to appear related to a
to the arrest of over 6,600 fugitives during this   felony sex offender charge. The outstanding
reporting period, over 14,000 in FY 2007,           warrant had been issued by the Pierce County
and over 65,500 arrests since the program’s         Sheriff ’s Office in 1982.
inception in 1996. The following are highlights
of fugitive felon activities during the past 6      Cooperative Disability
months.
                                                    Investigative Program
Fugitive Felon Program: Kidnapper
Assumes Alias to Evade Arrest                       Our CDI Program continues to be one of our
                                                    most successful initiatives, contributing to the
In January 2008, the U.S. Marshals Service          integrity of SSA’s disability programs. CDI is a
(USMS) requested assistance from agents in          joint effort of the OIG, SSA, State Disability
our Vancouver, Washington office in locating        Determination Services (DDS), and State and
a 62-year-old man who disappeared in 2005           local law enforcement personnel. Our 19 CDI
after serving 89 months in the Oregon State         Units in 17 States work to obtain sufficient
Penitentiary for kidnapping. The man had            evidence to identify and resolve issues of fraud
outstanding warrants for failure to register as     and abuse related to initial and continuing
a sex offender in the State of Washington and       disability claims. The following table highlights
for a parole violation (after the kidnapping        the successes of the CDI program, which
conviction) in Oregon.                              yielded over $106 million in SSA program
                                                    savings during this reporting period.
After reviewing the man’s criminal record,
which included numerous aliases and SSNs,
we determined that he was using an alias and
currently living in Georgia and receiving SSI
disability payments. According to SSA records,
the injuries documented for the missing
fugitive and the SSI recipient matched. The
Savannah, Georgia, USMS office interviewed
the man at his residence in Baxley, Georgia
and he denied using an alias until confronted
by a fingerprint match determination. He was
arrested in February 2008 and is currently
awaiting extradition to Salem, Oregon.

Fugitive Felon Program: 67-Year-Old
Man Arrested for Felony Sex Offense
As part of an initiative to locate and apprehend
sex offenders in Pierce County, Washington,
agents in our Seattle office arrested a



October 1, 2007 — March 31, 2008                                                                    Impact  •  15
          Semiannual Report to Congress




                                  Cooperative Disability Investigative Program Results
                                                (October 1, 2007 – March 31, 2008)


                                          Allegations      Confirmed                                 Non-SSA
                          State            Received       Fraud Cases         SSA Savings1           Savings2

                 Arizona                           98                 70          $4,680,135           $1,177,600
                 California3                      485                328         $18,516,385          $14,193,605
                 Colorado                          90                 62          $4,054,240           $1,268,296
                 Florida                           61                 71          $3,259,310           $3,104,102
                 Georgia                          170                 86          $5,246,222           $1,582,933
                 Illinois                          40                 39          $2,328,455            $944,515
                 Louisiana                         54                 33          $2,031,690           $1,256,466
                 Massachusetts                     90                 61          $3,847,881           $1,639,540
                 Missouri                          97                 56          $3,782,345           $1,310,480
                 New Jersey                        74                 70          $4,496,801           $3,968,630
                 New York                         139                102          $6,185,460           $5,927,940
                 Ohio                             276                188         $12,019,878           $6,720,710
                 Oregon                           168                136          $8,692,100           $7,729,560
                 Tennessee                         63                 50          $3,361,180           $1,703,235
                 Texas4                           165                145          $9,278,525           $4,811,281
                 Virginia                         103                 70          $4,655,000           $3,814,546
                 Washington                       176                154          $9,620,410           $7,528,135
                 Total                          2,349             1,721        $106,056,017          $68,681,574

                 1
                  SSA program savings are projected at a flat rate of $66,500 for initial claims that are denied as a
                 result of CDI investigations. When a CDI investigation supports the cessation of an in-pay case,
                 SSA program savings are projected by multiplying the actual monthly benefit times 60 months.
                 2
                  Non-SSA savings are also projected over 60 months whenever another governmental program
                 withholds benefits as a result of a CDI investigation, using estimated or actual benefit amounts
                 documented by the responsible agency.
                 3
                     California has two units, one in Los Angeles, and the other in Oakland.
                 4
                     Texas has two units, one in Dallas, and the other in Houston.




16   •  Impact                                                                 October 1, 2007 — March 31, 2008
                                                                  Semiannual Report to Congress




The following CDI case summaries highlight         Title II disability benefits, alleging a seizure
major investigations we conducted during           disorder. The case was referred to our Salem
this reporting period which enhanced SSA           CDI Unit by the Albany SSA Office after they
program integrity and the reliability of SSA’s     discovered inconsistencies regarding the man’s
operations.                                        ability to drive, his need for in-home care, and
                                                   his activities of daily living.
CDI: Hurricane Katrina Evacuee
Attempts to Collect Disability Benefits            On his disability application, the man reported
for Mental Illness                                 that he needed to be watched at all times due
                                                   to his seizures. He indicated that his wife
Our Houston CDI Unit investigated a                acted as his caregiver. The man’s statement
Hurricane Katrina evacuee who filed an SSI         was in stark contrast to a Title II disability
disability claim due to nervousness, paranoia,     claim filed a few months prior by his wife.
and depression. The Texas DDS referred this        On the wife’s application, she stated that she
case due to suspected malingering. CDI Unit        required care and that her husband was the
investigators, acting in an undercover capacity,   caregiver. In addition, she reported that her
interviewed the man, who appeared very calm        husband worked on their horse farm. Witness
and attentive and showed no signs of paranoia      interviews and investigator observations of
or depression. In fact, the man was very           the husband and wife revealed that both were
cooperative and cordial to the investigators.      actively running a horse training business
The man stated he was not working because          on their property, specializing in training
he was waiting on his disability check. When       unbroken and/or wild horses. The man’s
asked whether he was disabled, the man and his     application for Title II disability benefits was
wife both laughed in response to the question.     denied. The wife’s disability claim had already
The man and other family members all advised       been denied.
that there was nothing wrong with him. His
wife also advised that she receives a disability   CDI: Taxi Cab Driver Receives Disability
check for mental issues. However, the wife         Benefits While Working
grinned and acknowledged that nothing was
                                          Our Baton Rouge CDI Unit investigated a
wrong with her. During the interview, he was
                                          56-year-old Terrytown, Louisiana man who
able to provide his date of birth, read, keep up
                                          received Title II disability benefits since
with the interview, and appropriately answer
                                          November 1994 for disorders of the back. The
questions without assistance.
                                          Terrytown SSA office referred this case after
The Texas DDS denied the man’s SSI receiving an anonymous call reporting the
claim. Additionally, based on a Report of man was employed as a taxi cab driver since
Investigation provided by our Houston CDI 1995. In addition, the caller reported that the
Unit, the DDS terminated the woman’s SSI man had testified in a State Custody Court
payments.                                 Hearing that he was employed and earned
                                          over $1,500 per month.
CDI: Horse Trainer Applies for
Disability Benefits Due to Seizures      The owner of the cab company was interviewed
                                         and stated that the man is an independent
Our Salem, Oregon CDI Unit investigated contractor who has worked at the company
a 42-year-old Oregon man who applied for

October 1, 2007 — March 31, 2008                                                                      Impact  •  17
          Semiannual Report to Congress




             since 1997. Additional third-party interviews,
             surveillance, and local government occupational
             license record checks confirmed that the man
             was employed full-time as a taxi cab owner/
             operator.
             As a result of the investigation, the man’s
             disability benefits were terminated in December
             2005. The man pled guilty to making a false
             statement, and was sentenced in December
             2007 to 10 months’ home confinement
             (with electronic monitoring) and 5
             years’ probation. He was also ordered
             to pay restitution of $108,884 to
             SSA.

             CDI: Woman Uses Father’s SSN
             to Conceal Employment
             Our Atlanta CDI Unit investigated a
             60-year-old woman who had received
             Title II disability benefits since 1999
             due to a job-related back injury. An
             anonymous individual alleged that the
             woman was working in a family-owned
             business and using her father’s SSN
             to conceal her earnings. CDI Unit
             investigators developed information
             confirming that the woman had been
             employed since 1999.
             SSA removed the earnings fraudulently posted
             to the woman’s father’s record, which reduced
             the father’s SSA retirement benefits. The
             Atlanta SSA District Office terminated the
             woman’s benefits and assessed an overpayment
             of $52,854.




18   •  Impact                                                 October 1, 2007 — March 31, 2008
                                                                   Semiannual Report to Congress




Value                                               Program. While the Centers for Medicare and
                                                    Medicaid Services are primarily responsible
The second goal of the OIG Strategic Plan is        for this program, SSA assists the public with
Value. All OIG initiatives strive to provide        filing low-income subsidy applications. SSA’s
value to SSA, Congress, other key decision-         primary role is to determine whether a person
makers, and the public by delivering timely and     will be eligible for a subsidy based on income
reliable audit, investigative, and legal products   and resources. In this audit, we assessed the
and services. To achieve the intended value,        effectiveness of SSA’s income and resource
these products and services must effectively        verification process for individuals applying
meet the needs of all whom we serve while           for the Part D low-income subsidy.
maximizing our available resources. To do
                                             We estimated that SSA approved Medicare
this, we integrate best-practice strategies
                                             Part D low-income subsidies to approximately
and the newest technologies to increase our
                                             276,000 applicants whose income and/or
productivity and maximize our return on
                                             resources exceeded eligibility limits. The
investment to the public.
                                             enrollment of these individuals would result
                                             in estimated expenditures of approximately
Value Attained Through                       $473 million during a 12-month period. This
Audits                                       occurred primarily because SSA did not secure
                                             the needed information to verify income and
The focal point of many of our audits is the resource amounts on subsidy applications.
identification of SSA programmatic and Furthermore, we estimated that SSA’s new
operational areas where funds could be put redetermination process is unlikely to correct
to better use. In addition, we have often these errors in approximately 130,000 of the
isolated situations where we have questioned 276,000 cases.
approaches and their costs, and have
recommended alternatives to yield program SSA disagreed in most cases that it made
and operational savings.                     incorrect low-income subsidy eligibility
                                             determinations, stating that the Agency
During this reporting period, our auditors had made the best possible determinations
issued 40 reports with recommendations based on information available at the time.
identifying over $630 million in questioned We recommended that SSA (1) verify stated
costs and over $309 million in Federal funds income and resource amounts; (2) work more
that could be put to better use. Some of our closely with the IRS to obtain timely income
most notable audits are summarized below.    and resource data to verify eligibility; and
                                             (3) ensure that its redetermination process
SSA Operations: SSA’s Effectiveness in       identifies and terminates improperly awarded
Verifying Eligibility Requirements for       subsidies currently in effect.
Individuals Applying for the Medicare
Part D Prescription Drug Program
The Medicare Prescription Drug, Improvement,
and Modernization Act of 2003 established
the new Medicare Part D Prescription Drug


October 1, 2007 — March 31, 2008                                                                     Value  •  19
         Semiannual Report to Congress




              Benefit Payment Audit: Adjustment of           SSA agreed with our recommendations,
              Disabled Wage Earners’ Benefits at Full        including that it identify and take corrective
              Retirement Age                                 actions for those beneficiaries who were
                                                             incorrectly paid, and establish appropriate
              The Act contains two provisions that affect controls to ensure reduction factors are
              the calculation of monthly benefits for properly adjusted at FRA.
              beneficiaries who were entitled to both
              retirement and disability benefits before full Follow-Up: Impact on SSA’s Programs
              retirement age (FRA).                          When Auxiliary Beneficiaries Do Not
              The first provision eliminates a benefit        Have Their Own SSNs
              reduction for beneficiaries who are          In this audit, we assessed whether SSA
              simultaneously entitled to disability        implemented the recommendations in our
              benefits, but elected a reduced retirement   September 2002 report, Impact on the Social
              benefit to avoid a workers’ compensation or  Security Administration‘s Programs When
              public disability benefits offset. For these Auxiliary Beneficiaries Do Not Have their
              beneficiaries, SSA must eliminate the benefitOwn Social Security Numbers. That audit
              reduction and increase the benefit amount    identified 126,471 auxiliary beneficiaries who
              at FRA.                                      did not have their own SSNs on the primary
              The second provision affects beneficiaries wage earner’s Master Beneficiary Record
              who elected reduced retirement benefits and (MBR), causing $8.9 million in improper
              subsequently become entitled to disability payments.
              benefits. For these beneficiaries, SSA must We found that SSA implemented two of
              reduce the disability benefit for each month the three recommendations it agreed to in
              the individual was previously entitled to a our prior report and had made an effort to
              reduced retirement benefit.                  implement our final recommendation to
              In this audit, we assessed whether SSA add the SSNs to the MBRs of all auxiliary
              accurately calculated benefits under these beneficiaries currently receiving benefit
              two provisions. We found that SSA had payments. However, we still identified 63,134
              not properly adjusted the benefits of 2,782 auxiliary beneficiaries without an SSN on the
              disabled wage earners at FRA. As a result, MBR, and $7.6 million in improper payments,
              we estimated that: (1) SSA underpaid including (1) $7.5 million in OASDI benefits
              these beneficiaries about $39.9 million; improperly paid due to the deaths of auxiliary
              and (2) unless SSA takes prompt corrective beneficiaries; and (2) $89,938 in incorrect
              action, 2,685 of these beneficiaries will be SSI payments made because the appropriate
              underpaid about $68.1 million over their amount of the auxiliary beneficiaries’ OASDI
              remaining life expectancies. We also found benefits was not recognized as income when
              that SSA overpaid about $3.2 million to their SSI payments were calculated.
              3,220 beneficiaries because it did not apply About 96 percent of the auxiliary beneficiaries
              the correct reduction factor for the months in these cases were first entitled to benefits
              of entitlement to retirement benefits before before June 1989. Although the Act only
              FRA.


20 •  Value                                                           October 1, 2007 — March 31, 2008
                                                                    Semiannual Report to Congress




requires SSA to obtain satisfactory proof of         for 100 percent of allowable costs up to its
SSNs from individuals first entitled to benefits     approved funding authorization.
in June 1989 or later, obtaining such proof
                                                     During this reporting period, we issued
for all beneficiaries may help reduce improper
                                                     five DDS administrative cost audit reports.
payments. We recommended that SSA take all
                                                     We evaluated the internal controls over the
feasible steps to add the SSNs to the MBRs
                                                     accounting and reporting of administrative
of all auxiliary beneficiaries currently receiving
                                                     costs; determined whether costs claimed
benefits (including those beneficiaries who were
                                                     were allowable and funds properly drawn; and
first entitled to benefits prior to June 1989).
                                                     assessed limited areas of the general security
SSA agreed with our recommendation.
                                                     controls environment.
Benefit Payment Audit: Administrative                In total, we reported $1,975,414 in questioned
Costs Claimed by Various DDSs                        costs and $1,780,086 in funds put to better
The DDSs in each State, the District of              use. Most of our recommendations relate
Columbia, and Puerto Rico determine whether          to the DDS’ need to comply with Federal
applicants meet the medical requirements for         regulations and SSA policies and procedures.
Disability Insurance and SSI in accordance with      The individual audit reports and their financial
Federal regulations. Each DDS is authorized          impacts are listed below. SSA generally agreed
to purchase consultative examinations and            with our recommendations.
existing medical evidence from the claimants’
treating sources. SSA reimburses the DDSs


                        DDS Administrative Cost Audit Reports

                                                                                   Funds Put to
    DDS                         Audit Number               Questioned Costs
                                                                                   Better Use

    Rhode Island                A-01-06-15069                       $1,751,060                $0

    Alabama                     A-08-07-17151                                $0               $0

    Connecticut                 A-15-07-27176                                $0               $0

    Washington                  A-09-07-17103                                $0      $1,516,055

    District of Columbia        A-15-08-18019                         $224,354         $264,031

    Totals                                                         $ 1,975,414      $ 1,780,086




October 1, 2007 — March 31, 2008                                                                        Value  •  21
         Semiannual Report to Congress




     Benefit Payment Audit: Controls over                    Child Development (Ittleson Center) after
     Miscellaneous Payments Made Through the                 being alerted by Ittleson’s parent organization,
     Single Payment System                                   the Jewish Board of Family and Children’s
                                                             Services, Inc. ( JBFCS), to an allegation of
     Certain types of benefit payments are processed misappropriated SSI funds. We conducted this
     through SSA’s Single Payment System (SPS); for audit to determine whether SSI payments sent
     example, the issuance of death underpayments to to the Ittleson Center on behalf of some of its
     non-beneficiaries or the re-issuance of a returned residents were properly used for the intended
     Lump Sum Death Payment. The SPS was designed recipients and that related expenditures were
     to ensure the timeliness of these payments, stop properly supported.
     duplicate and erroneous payments, and provide
     management information. We conducted an audit We found that the Ittleson Center did not
     to determine whether SSA had adequate controls have effective safeguards over the receipt and
     over payments made via the SPS.                         disbursement of SSI payments. Additionally,
                                                             we found SSI payments were not used and
     Between July 1, 2002 – April 10, 2006, SSA accounted for in accordance with SSA’s policies
     issued approximately $373 million in SPS death and procedures. We determined that 468 payments
     underpayments to 327,580 non-beneficiaries. Based totaling about $33,000 for 39 SSI recipients from
     on our review, we estimate that SSA improperly January 1, 2001 through March 31, 2006 were not
     paid $7.3 million to 11,912 non-beneficiaries. properly safeguarded or accounted for in accordance
     We also found that SSA did not have adequate with Federal regulations and SSA’s policies and
     documentation to support $98 million in death procedures. Because of the lack of financial records,
     underpayments paid to 50,030 non-beneficiaries, we were unable to determine how the Ittleson
     and did not obtain or record the SSNs of 176,029 Center used the SSI funds it received.
     non-beneficiaries. We also identified 2,281
     individuals who may have received duplicate SPS We recommended, and SSA agreed, to
     payments totaling $48.3 million.                        (1) determine whether SSI payments received by
                                                             the Ittleson Center were misused, and if misuse
     We recommended that SSA: (1) take corrective occurred, take appropriate action; (2) work with
     actions on improper and duplicate SPS payments JBFCS and the Ittleson Center to establish effective
     identified by our audit; (2) remind staff of procedures internal controls over the receipt and management
     to follow when determining underpayment of SSI payments and to ensure that complete
     amounts payable to non-beneficiaries; (3) retain financial records supporting the receipt, recording,
     written applications for death underpayments; disbursement and maintenance of SSI payments
     (4) establish an SPS alert for instances in which an are maintained; and (3) determine whether other
     SSN is not recorded; and (5) remind staff to take JBFCS facilities are serving as representative
     steps to identify and prevent duplicate payments. payees, and, if so, ensure that they are doing so in
     SSA agreed with our recommendations.                    accordance with applicable regulations and SSA
     Representative Payee Audit: The Henry                   policies and procedures.
     Ittleson Center – An Organizational
     Representative Payee for SSA
     SSA Region II requested that we conduct
     an audit of the Henry Ittleson Center for


22 •  Value                                                           October 1, 2007 — March 31, 2008
                                                                    Semiannual Report to Congress




Value Attained Through
Investigations
                                                                  SSA Funds Reported
During this reporting period, the efforts of our                 (10/01/07 – 3/31/08)
investigators yielded significant results arising
from the successful prosecution of cases that                        Recoveries        $23,576,850
we developed. Our investigators achieved over
$200 million in investigative accomplishments,                            Fines         $2,383,206
with over $38 million in SSA recoveries,
restitution, fines, and settlements/judgments,         Settlements/Judgments              $605,530
and over $162 million in projected savings
from investigations resulting in the suspension                     Restitution        $11,635,333
or termination of benefits.
The table (shown at right) represents the                   Estimated Savings        $162,227,111
efforts of OI personnel nationwide to recover
                                                                          Total      $200,428,030
SSA funds paid in fraudulent benefits or
through other illegal actions.

                              o
                The following case summaries        The woman pled guilty to misuse of an
                are indicative of the more than     SSN, and was sentenced in November 2007
                5,400 investigations that we        to 6 months’ imprisonment, 90 days’ home
                closed during this reporting        confinement, and 3 years’ supervised release.
               period. The cases we have            She was also ordered to pay full restitution to
highlighted illustrate the many instances           various financial institutions.
where our investigative efforts have resulted
in a significant return on investment.              SSN Misuse: Woman Opens Nine Bank
                                                    Accounts with Stolen SSNs
SSN Misuse: Former Companion Steals
                                                    Agents from our Seattle office, in cooperation
Doctor’s Identity
                                                    with the Federal Bureau of Investigation and
Agents from our St. Louis office investigated       the King County, Washington Sheriff ’s Office,
a woman who stole the identity of her doctor,       investigated a woman suspected of committing
with whom she had been romantically involved.       SSN misuse and bank fraud as part of
The investigation revealed that the woman           “Operation Name Game.” This operation
used the stolen identity to obtain a Missouri       identified suspects in the State of Washington
identification (ID) card. Using the ID card, the    who perjured themselves in Washington State
woman financed a vehicle, obtained mortgage         courts to obtain legal name changes. Our
loans, and opened a business, resulting in          investigation revealed that the woman was
losses totaling more than $96,000.                  responsible for opening nine bank accounts


October 1, 2007 — March 31, 2008                                                                      Value  •  23
         Semiannual Report to Congress




              with stolen SSNs, including two using the true SSN Misuse: Tax Preparer Commits
              name and SSN of a victim.                      Identity Theft
              In January 2008, after pleading guilty to bank    Agents in our Seattle office investigated a tax
              fraud, the woman was sentenced to 5 months’       preparer who issued herself over 25 instant
              incarceration, 5 months of home confinement,      loans using the identities of her tax clients.
              and 5 years’ supervised release. She was also     Our investigation revealed that the woman
              ordered to pay restitution of $15,406 to a        reviewed confidential client files and used the
              financial institution.                            clients’ identifying information to complete
                                                                the loan applications. The woman was able to
              SSN Misuse: Former Bank Vice-                     fraudulently obtain $24,700 in instant loans.
              President Involved in a Credit Card Fraud
              Conspiracy                                         In November 2007, after pleading guilty to
                                                                 bank fraud and aggravated identity theft,
              Agents from our St. Louis office, the U.S. the woman was sentenced to 39 months’
              Secret Service, and the U.S. Postal Inspection incarceration and 5 years’ supervised release
              Service discovered that a former bank vice- and was ordered to pay restitution of $24,700
              president was responsible for a large credit to the loan company.
              card fraud conspiracy. Fraudulent lines of
              credit in the form of business credit cards Representative Payee Fraud: Payee
              with credit limits of $25,000 were issued. At Starves SSA Beneficiary
              the suspect’s direction, the credit applications
              were completed for businesses that did not Acting on a referral from the Butler County,
              exist, using the identities of other conspirators. Missouri Public Administrator’s Office, our St.
              Some of these individuals were paid for the Louis office investigated a representative payee
              use of their identities. In return for the credit for stealing funds from a Title II retirement
              cards, the suspect received kickbacks ranging beneficiary. The investigation revealed that the
              from $2,000 to $5,000, resulting in a loss of representative payee misused the beneficiary’s
              over $1.4 million to the financial institution. funds and left her near starvation. The
                                                                 beneficiary was suffering from the late stages
              In February 2008, after a being convicted in of Alzheimer’s disease.
              a jury trial for bank and credit card fraud, the
              former bank vice-president was sentenced In December 2007, after pleading guilty
              to 114 months’ incarceration and 5 years’ to making false statements to SSA and
              supervised release and was ordered to pay converting benefits, the representative payee
              restitution of more than $1.4 million to the was sentenced to 6 months’ home confinement
              bank and a special assessment of $3,600. In and 5 years’ probation, and was ordered to
              addition, a Missouri State Representative was pay restitution of $46,965 to SSA. The SSA
              forced to resign from the Missouri House of beneficiary has been placed in a nursing home,
              Representatives as part of his plea agreement and the Butler County Public Administrator’s
              in this case. He is awaiting sentencing.           Office has assumed guardianship.




24 •  Value                                                             October 1, 2007 — March 31, 2008
                                                                   Semiannual Report to Congress




Representative Payee Fraud: Father                  supervised release. She was ordered to pay full
Misuses Son’s SSI Payments                          restitution of $153,857 to SSA and $70,718
                                                    to the mortgage company.
Our Salt Lake City office investigated a referral
from the St. Cloud, Minnesota SSA office            Disability Program Fraud: Disability
alleging that the father (and representative        Beneficiary Obtains Second SSN to
payee) of an SSI disabled child recipient failed    Conceal Employment
to report that the child had been removed
from his custody. From April 2004 – August        Agents in our Iselin, New Jersey office, with
2006, the father continued to receive the         assistance from the U.S. Secret Service,
child’s SSI payments. During that time, the       investigated a Title II disability beneficiary
father participated in a SSA review and falsely   for fraudulently obtaining a second SSN in
stated that he maintained custody of the          order to conceal his work activity. The man
disabled child. SSA determined that the father    used the second SSN to work, while receiving
wrongfully received and misused $15,681 of        SSA benefits under his original SSN. In
the child’s SSI payments.                         January 2008, after pleading guilty to theft
                                                  of Government funds, he was sentenced to
In January 2008, after pleading guilty to 6 months of home incarceration, and was
wrongful conversion of SSI payments, the ordered to pay SSA restitution of $68,185.
father was sentenced to 4 months’ home
confinement and 3 years’ probation. In Disability Program Fraud: Man Uses
addition, he was ordered to pay restitution of Father’s SSN to Conceal Work
$15,681 to SSA.
                                                  Based on a referral from a Pennsylvania SSA
Disability Program Fraud: Mortgage                office, our Atlanta office investigated a Title II
Broker Conceals Work Activity                     disability beneficiary who concealed his work
                                                  activity by using his father’s SSN. SSA
Our St. Louis office conducted this investigation determined that the man received $147,719
based on a referral received from the Clayton, in benefits to which he was not entitled. In
Missouri SSA office. The investigation revealed December 2007, after being found guilty of
that a Title II disability beneficiary worked theft of Government funds, the man was
as a mortgage broker, earning over $200,000 sentenced to 2 years’ incarceration and 3 years’
annually, while collecting SSA disability supervised release. In addition, he was ordered
benefits. When arrested, the woman lived in to pay full restitution to SSA.
a $795,000 home she purchased by falsifying
her loan application. The home was later placed Disability Program Fraud: SSI Recipient
in foreclosure by the mortgage company. The Operates Daycare
investigation also revealed that in 2005, the
                                                  Agents in our Cleveland office, after receiving
woman forged the signature of a bankruptcy
                                                  a referral from the local SSA office, conducted
judge on a bankruptcy document.
                                                  an investigation of an SSI disability recipient
In January 2008, after pleading guilty to mail for concealing her operation of a day care
and wire fraud, the woman was sentenced facility. The ensuing investigation became a
to 33 months’ imprisonment and 5 years’ joint effort with the Special Investigations



October 1, 2007 — March 31, 2008                                                                       Value  •  25
         Semiannual Report to Congress




              Unit of the Cayahoga County Department of          Double Check Negotiation (DCN)
              Jobs and Family Services. The investigation        Project: Woman Claims Non-Receipt of
              revealed that the woman not only operated          15 SSI Payments
              a day care facility, but advertised in a local
                                                        An investigation conducted by our Indianapolis
              Cleveland newspaper. She also concealed her
                                                        office revealed that a woman receiving SSI
              marital status and defrauded the State of Ohio
              Aid to Dependent Children and Food Stamp  disability payments claimed non-receipt of
              programs.                                 payments on seven occasions. In addition,
                                                        the woman was the representative payee for
              The woman pled guilty to Social Security an SSI disabled individual and claimed non-
              and mail fraud, and was sentenced in receipt of payments for this recipient on eight
              December 2007 to 3 years’ probation and occasions.
              6 months’ home detention with electronic
              monitoring. She was also ordered to pay The woman pled guilty to theft, and was
              restitution of $65,123 to SSA and $20,319 sentenced in October 2007 to 1 year of
              to the State of Ohio.                     probation. She was ordered to pay restitution
                                                        of $4,252 to SSA.
              Deceased Payee Project: Man Uses Bank
              Card to Collect Deceased Mother’s SSA              Value Attained Through Legal
              Funds
                                                                 Initiatives
              Our Clearwater, Florida office conducted
              this investigation as part of the National      OCCIG’s efforts to administer that portion of
              Deceased Payee Project (BIC D), which           the CMP program which deals with violators
              identifies widows and widowers of Title II      of Section 1129 of the Act maximize the
              beneficiaries whose benefits continued to       resources available to us and create a positive
              be paid after their death. The investigation    return on investment. Section 1129 of the
              determined that a woman receiving widows        Act allows for the imposition of a CMP
              benefits died in January 2003, and that benefitsagainst those who make false statements or
              had continued to be direct-deposited into her   representations in connection with obtaining
              checking account. Her son accessed the funds    or retaining benefits or payments under
              via Automated Teller Machines and through       Titles II, VIII, or XVI of the Act. In addition,
              point-of-sale transactions. The son admitted    CMPs may be used to penalize representative
              to misappropriating funds intended for his      payees for wrongful conversion of payments
              deceased mother.                                made under the Social Security programs,
                                                              and to penalize individuals who knowingly
              In November 2007, after pleading guilty to withhold a material fact from SSA. After
              theft of Government funds, the man was consultation with DOJ, OCCIG is authorized
              sentenced to 5 years’ supervised probation, and to impose penalties of up to $5,000 for each
              was ordered to pay restitution of $28,414 to false statement, representation, conversion, or
              SSA.                                            omission. A person may also be subject to an
                                                              assessment, in lieu of damages, of up to twice
                                                              the amount of any resulting overpayment.




26 •  Value                                                            October 1, 2007 — March 31, 2008
                                                                  Semiannual Report to Congress




The following table and cases highlight the
value achieved through our Section 1129
efforts for this reporting period.


       False Statements Under
        Section 1129 Results
          (10/01/07 – 3/31/08)

  Cases Received                 372

  Cases Initiated                273

  Cases Closed                   412

  Penalties and
                             $3,092,932
  Assessments
  Number of Hearings
                                  14
  Requested

Two ALJ Rulings Uphold OCCIG Penalty inability to show that she could not pay the
Determinations                       penalty.
OCCIG imposed a $62,393 CMP and                    In another contested action, OCCIG imposed
assessment in lieu of damages against a            a $35,528 CMP and assessment in lieu of
Georgia woman for making false statements to       damages against a divorced Texas woman,
SSA. The woman, who was operating her own          serving as representative payee for her two
advertising business, told SSA that she was        children. The woman told SSA that her two
not working from 1999 through 2003 due to          children were living with her and that she
complications from a liver transplant. However,    would use their benefits for them. However,
SSA received information that the woman was        SSA received information from the children’s
earning significant sums during those years.       father that the children were living with him
Upon investigation, the woman confessed to         and that he did not receive any of the children’s
the false statements, but she later appealed the   benefits from the mother. SSA appointed
imposition of the $62,393 penalty claiming         the father the new representative payee, and
that she did not have the requisite mental         OCCIG imposed the CMP. The mother
capacity, nor the financial condition to pay the   appealed the CMP, but the ALJ concluded that
penalty. Nonetheless, an ALJ found that the        penalties and assessment imposed by OCCIG
OCCIG penalty was appropriate considering          were warranted and reasonable.
the woman’s repeated false statements, and her




October 1, 2007 — March 31, 2008                                                                       Value  •  27
         Semiannual Report to Congress




              Long-time SSI Recipients Conceal                  provided a written statement to investigators
              Significant Assets and Resources                  advising that the man has always worked at
                                                                his company using his wife’s SSN. In addition,
              A California couple received SSI benefits since   the owner reported that any wages from his
              1994. During yearly reviews to determine their    company appearing under the wife’s SSN are
              continued eligibility, the couple consistently    actually wages belonging to the man.
              reported that they had no income and only
              $1,200 in a savings account. A savvy SSA          SSA terminated the man’s Title II disability
              claims representative discovered that the         benefits, which resulted in an overpayment of
              couple had undisclosed resources of cash          $24,314. OCCIG obtained a $15,000 default
              and property overseas where they traveled         judgment against the man for three false
              frequently, and that they kept large amounts of   statements made to conceal the fact that he was
              cash which would have made them ineligible        working full-time under his wife’s SSN, and
              to receive SSI benefits. They each agreed to      negotiated a $25,000 CMP settlement with
              pay $150 per month to pay back the benefits       the man’s employer for knowingly allowing the
              they fraudulently received, plus a $10,000        man to work under his wife’s SSN.
              penalty each.
                                                                Penalty Imposed Against California Man
              OCCIG Settles Representative Payee                for Making Numerous False Statements
              Fraud Case
                                                              OCCIG imposed a penalty and an assessment
              A mother who served as her son’s representative in lieu of damages totaling $48,999 against
              payee not only failed to inform SSA when a California man for making numerous false
              her son was incarcerated, and therefore no statements to SSA. The man, while collecting
              longer entitled to his disability benefits, but SSI disability benefits in his own name,
              continued to cash his benefit checks, which applied for SSI disability benefits using his
              she spent on her own needs. The mother also brother’s name and SSN, and a fraudulent
              falsely told SSA that she spent his benefits on driver’s license. The false statements resulted
              her son’s personal needs. OCCIG settled the in improper SSI payments of $13,499.
              case for a $15,000 penalty to be withheld from
              the woman’s own monthly SSI benefits.           OCCIG Imposed $25,000 CMP for Nine
                                                                DCNs
              Man Using Wife’s SSN to Work Gets
                                                                OCCIG imposed a $25,000 penalty against
              $15,000 CMP; Employer Agrees to
                                                                a Kentucky woman for negotiating both her
              $25,000 Settlement
                                                                original and replacement SSI benefit checks
              The SSA Fraud Hotline referred this case          on nine separate occasions. Each time she
              to the Atlanta CDI Unit after receiving an        contacted SSA to obtain a replacement check,
              anonymous report about a man concealing           she stated she had not received the original
              his employment by working under his wife’s        benefit check. Our investigation indicated that
              SSN. Our CDI Unit investigators interviewed       the woman had a long history of DCNs dating
              employees at the man’s place of employment        back to 1993, and that she had negotiated
              and discovered that the man has been              both the original and replacement checks on
              employed full time for the past 2 years. The      25 separate occasions since that time.
              owner of the business was interviewed and


28 •  Value                                                              October 1, 2007 — March 31, 2008
                                                                     Semiannual Report to Congress




People                                                 staffing plan forecasts employee departures based
                                                       on historical trends and human resource data,
The third goal of the OIG Strategic Plan is People.    which allows us to establish optimal timeframes
The collective effort of our employees continues       for recruiting new employees. Moreover, OIG
to be the driving force behind this organization’s     managers monitor staffing to ensure that vacant
success in meeting its mission. We provide an          positions are filled promptly, ensuring that
encouraging and rewarding work experience with         OIG components have the ability to fulfill their
the goal of retaining these exceptional individuals.   respective missions.
OIG leadership fosters an environment where
                                                       Our human capital specialists and recruiters
employees can realize their potential through
                                                       participate in job and career fairs nationwide.
training and developmental programs. Each year,
                                                       These events target underrepresented groups in
OIG components convene training conferences
                                                       the labor market, allowing us to maintain a truly
to inform their employees about new procedures
                                                       diverse workforce. Once we identify the best
at various levels of our organization. In addition,
                                                       candidates, we employ a structured interview
the OIG Organizational Health Committee
                                                       process to fairly assess their qualifications.
conducts an annual assessment of employee
                                                       Through these efforts, we hired 30 employees
satisfaction levels and addresses employee
                                                       in FY 2008.
concerns.
                                                       Also during this reporting period, the Inspector
Budget                                                 General selected nine outstanding employees for
                                                       our first Leadership Development Program. This
For FY 2008, our annual appropriation is               18-month training and development program
$92 million, which funds 590 work years                will provide OIG with a cadre of highly qualified
and related support costs. Of this amount,             candidates for future leadership vacancies. The
approximately 88 percent goes toward the               program included a mentor training session in
salaries and benefits of our employees. The            late March 2008, and the first assignments began
remaining 12 percent pays for our support              in April 2008.
costs—specifically rent, telecommunications,
and discretionary spending (travel, training, and      Information Technology
general operational procurements). This budget
allocation supports our efforts to meet or exceed      We provide and maintain most of our own
the expectations stipulated in our Third Edition       information technology (IT) systems. Our IT
Strategic Plan for Fiscal Years 2006-2010. The         specialists utilize state-of-the-art tools and place
goals and accomplishments measured in our              a high priority on ensuring that our employees
Strategic Plan are also published in the Annual        have the latest proven technologies with which
Congressional Budget Justification.                    to perform their work.
                                                       During this reporting period, we continued to
Human Capital Planning and                             build a comprehensive administrative database
Management                                             that will allow for interconnectivity between
                                                       OIG’s components, and we released a budget
We actively pursue and work to retain the              application that automates workflow and
best possible employees. First, our budget and         tracking of travel, training, and procurement


October 1, 2007 — March 31, 2008                                                                     People  •    29
          Semiannual Report to Congress




               transactions. An additional module for also give us the chance to educate the public
               facilities management is near completion and inspire their public confidence in Federal
               and is being refined prior to its release. We programs.
               are also working to identify other business
                                                                       Senior OIG officials addressed
               processes that can be automated to increase
                                                                       national audiences on current issues
               our efficiency and decrease our costs.
                                                                       of interest during this reporting
               In support of the President’s goal to expand            period. In February and March 2008,
               electronic services, we maintain an Internet            Inspector General O’Carroll served
               website that is informative and useful to as a guest lecturer in the Inspectors General
               the public. Citizens using our web-based Program at Georgetown University’s Public
               services will find them easy-to-understand. A Policy Institute. In his lecture on “Public
               workgroup comprised of auditors, investigative Policy in Action,” Mr. O’Carroll discussed the
               personnel, legal experts, and administrative OIG’s role in the public policy arena and the
               technicians continuously monitors the OIG relationship of an IG with the Agency head,
               website to ensure that all information is Congress, and other stakeholders.
               accurate and up-to-date.
                                                                       In February 2008, Inspector General
               Finally, our IT staff analyzes industry trends          O’Carroll testified before the House
               to find new technologies that may enhance               Committee on Appropriations,
               our business processes. In FY 2008, for                 Subcommittee on Labor, Health
               example, we have upgraded our systems                   and Human Services, Education, and
               infrastructure to provide ample, secure Related Agencies at a hearing on the Social
               storage for application and user data as well Security disability backlog. Mr. O’Carroll
               as additional disaster recovery capabilities. shared with the Subcommittee details of the
               In addition, OIG software specialists and OIG’s work in assessing factors contributing
               contract personnel have worked during this to the backlog and assisting SSA in its efforts
               reporting period to implement additional to reduce disability processing times.
               enhancements to our National Investigative
               Case Management System, which is already OIG employees are active in their local
               a model for investigative case management communities, in both personal and
                                                              professional capacities. Following are
               across the Federal Government.
                                                              highlights of our outreach efforts during this
                                                              reporting period:
               Outreach Efforts
                                                                       The Allegation Management
               We are always seeking new ways to reach                 Division, in partnership with
               out to the wider Federal community as well              representatives from SSA’s Office of
               as to members of the public. In a variety of            Operations, presented an interactive
               venues, we share our mission of promoting               video teletraining broadcast covering
               integrity and excellence in Social Security    procedures for the Agency’s handling of OIG-
               programs and operations. These occasions       referred allegations. The goal of this outreach
               are important opportunities to exchange        effort was to better inform Social Security field
               information and forge partnerships. They       office employees on the appropriate process


30 •  People                                                           October 1, 2007 — March 31, 2008
                                                                 Semiannual Report to Congress




for fully analyzing and developing allegations President, and serves as the National Director
of fraud, waste and abuse. The program was for Administration for FLEOA.
broadcast live and replayed several times
                                                        Agents from the Kansas City Field
throughout the day. Through this learning
                                                        Division were instrumental in organizing
initiative, OIG anticipates a higher rate of
                                                        the Iowa Public Safety Officers Assistance
substantiated allegations.
                                                        Fund. The non-profit fund was created to
         Susan Yuen from the New York Audit             provide immediate financial assistance to
         Division has been nominated for the public safety officers, including law enforcement,
         SSA Volunteer Service Award for her firefighters, and emergency medical services, and
         active work in four organizations: the their families in times of crisis. The First Annual
         Organization of Chinese Americans Public Safety Officers Motorcycle Ride raised
(OCA), the Brecknock Hall Foundation, over $7,000.
Bike New York, and the Medical Reserve
                                                        Agents from the Atlanta Field Division
Corp (MRC). Ms. Yuen’s participation with
                                                        assisted the FLEOA and the National
the OCA included coordinating social and
                                                        Center for Missing and Exploited
fundraising events. At Brecknock Hall, Ms.
                                                        Children in the annual National Kids Day
Yuen volunteered on weekends by painting,
                                                        Event in Greensboro, North Carolina.
plastering and removing trash in conjunction
with preservation work at the Hall. Ms. Yuen The agents participated in fingerprinting and
assisted with Bike New York by serving as a photographing approximately 200 children.
riding marshal, responsible for maintaining             The Kansas City Assistant Special
order and safety by directing massive crowds            Agent-in-Charge participated in
of 30,000 bicyclists, and by providing office           a “polar bear plunge” with other
assistance prior to the event. At the MRC,              Federal agents—the “Freezing Feds”—
Ms. Yuen participated in workshops for                  and raised over $5,100 for the Special
bio/physical terrorism and natural disaster Olympics.
preparedness.
                                                        An Agent from the Boston Field Division
         Agents in our Seattle Field Division           volunteers with “Everybody Wins,” a
         made several presentations regarding           national literacy and mentoring non-
         the exploitation of the elderly, ID theft      profit organization.
         education, and safeguarding personal
         data.                                     Hurricane Response Efforts
         Agents from the Chicago Field Division
                                                  We continue to be actively involved in pursuing
         serve on advisory boards for the
                                                  investigations of fraud related to Hurricanes
         American Arthritis Foundation, the
                                                  Katrina and Rita and helping SSA prepare for
         Geauga County Police Athletic League,
                                                  similar events in the future. Because the SSN is
         Minnesota State Fraud Investigators
                                                  a key identifier for the various relief programs,
Association, and for Smith Park in Chicago.
                                                  SSA OIG is a critical partner in multi-agency
In addition, an Agent from the Milwaukee
                                                  investigations of hurricane-related fraud. To
office is the local Federal Law Enforcement
                                                  that end we have assigned an agent to the DOJ’s
Officers Association (FLEOA) Chapter


October 1, 2007 — March 31, 2008                                                               People  •    31
          Semiannual Report to Congress




          Hurricane Katrina Fraud Task Force in Louisiana, Business Administration revealed that a 33-year-
          where we have been involved in numerous joint old Houston woman was the chief organizer of
          investigations of hurricane-related fraud.           a FEMA fraud conspiracy. The woman came to
                                                               the attention of Federal law enforcement after
          Since the inception of the Task Force, OI has opened a Government Accountability Office review
          64 investigations and secured 52 indictments and of Hurricane Katrina and Rita FEMA claims
          45 convictions of individuals for hurricane-related revealed that more than 40 claims were filed under
          fraud. For this reporting period, our investigators different names using Houston mailing addresses
          made 4 arrests, opened 7 cases, secured 6 associated with the woman. The investigation
          indictments and 7 convictions. Following are identified that the names used in these claims were
          highlights of our hurricane-related investigative friends and relatives of the woman who were living
          activity during this reporting period.               in Houston, not New Orleans or Lake Charles,
          Woman Sentenced to 43 Years in Prison for            as stated in the claims. The woman used different
          Hurricane-Related Fraud                              SSNs without the knowledge or authority of
                                                               the true assignees in the claims filed under her
          Our Birmingham office investigated an SSI name.
          recipient based on a request for assistance from
          a USAO in Alabama. The USAO reported that Subsequent investigation identified 107 claims
          the woman was the subject of a Federal Emergency filed using names and addresses connected to
          Management Agency (FEMA) investigation the conspiracy. FEMA mailed checks totaling
          for filing false disaster-relief claims following more than $140,000 based on these claims. In
          Hurricane Katrina.                                   November 2007, after entering a plea of guilty to
                                                               conspiracy to commit mail fraud and aggravated
          Our investigation revealed that the woman had identity theft, the woman was sentenced to 57
          been receiving SSI since 1999 based on mental months in Federal prison and 5 years’ supervised
          retardation and mood disorders. Moreover, she release. She was also ordered to pay FEMA
          had concealed from SSA all income received from restitution of $143,438.
          filing the false FEMA claims. SSA subsequently
          terminated the woman’s SSI payments. The SSI Recipient Defrauds FEMA of $17,906
          investigation also revealed that the woman, Agents from our Seattle office and DHS OIG
          working with several co-conspirators, had filed determined that a 36-year-old SSI disability
          15 false FEMA claims using false SSNs.               recipient fraudulently applied for FEMA disaster
          After a jury trial, the woman was found guilty        relief monies claiming she had been displaced
          of 22 counts, including theft, conspiracy, drug       by Hurricane Katrina. Actually, the woman
          distribution, threatening a witness, and possession   was residing in the State of Washington when
          of a firearm. Based on the minimum sentencing         Hurricane Katrina struck. In addition, the woman
          guidelines, she was sentenced in January 2008 to      failed to report the receipt of FEMA funds to
          43 years in Federal prison and was ordered to pay     SSA, causing an SSI overpayment.
          restitution to FEMA of $79,607.               On November 29, 2007, after pleading guilty
          Ringleader of FEMA Fraud Conspiracy           to making material false statements, the woman
          Convicted                                     was sentenced to three years’ probation and was
                                                        ordered to pay restitution of $21,081 ($3,175 to
          Agents from our Houston office, the U.S. SSA and $17,906 to FEMA).
          Postal Inspection Service, DHS, and the Small

32 •  People                                                            October 1, 2007 — March 31, 2008
                                             Semiannual Report to Congress




                            A Special Thank You
             The diligent work, outstanding efforts, and
             many contributions of our entire OIG staff
            make the accomplishments highlighted in this
              Semiannual Report to Congress possible.
                We would like to thank them for their
                 dedicated spirit and many successes.




October 1, 2007 — March 31, 2008                                      People  •    33
     Semiannual Report to Congress




34                                   October 1, 2007 — March 31, 2008
                                    Semiannual Report to Congress




                   Reporting Requirements
                            and
                         Appendices




October 1, 2007 — March 31, 2008              Reporting Requirements  •   35
          Semiannual Report to Congress




             Reporting Requirements
             This report meets the requirements of the Inspector General Act of 1978, as amended, and
             includes information mandated by Congress.



                    Section                             Requirement                           Page(s)

                  Section 4(a)(2)    Review of legislation and regulations                      N/A


                  Section 5(a)(1)    Significant problems, abuses, and deficiencies             6-32


                  Section 5(a)(2)    Recommendations with respect to significant problems,
                                                                                             8-11, 19-22
                                     abuses, and deficiencies

                  Section 5(a)(3)    Recommendations described in previous Semiannual        Appendices F
                                     Reports on which corrective actions are incomplete         &G

                  Section 5(a)(4)    Matters referred to prospective authorities and the
                                                                                             11-18, 23-26
                                     prosecutions and convictions that have resulted

                 Section 5(a)(5) &
                                     Summary of instances where information was refused         N/A
                  Section 6(b)(2)


                  Section 5(a)(6)    List of audits                                          Appendix B


                  Section 5(a)(7)    Summary of particularly significant reports                6-32


                                     Table showing the total number of audit reports and
                  Section 5(a)(8)                                                            Appendix A
                                     total dollar value of questioned costs

                                     Table showing the total number of audit reports and
                  Section 5(a)(9)                                                            Appendix A
                                     total dollar value of funds put to better use

                                     Audit recommendations more than 6 months old for
                 Section 5(a)(10)                                                            Appendix A
                                     which no management decision has been made

                                     Significant management decisions that were revised
                 Section 5(a)(11)                                                               N/A
                                     during the reporting period

                                     Significant management decisions with which the
                 Section 5(a)(12)                                                            Appendix D
                                     Inspector General disagrees




36  •  Reporting Requirements                                          October 1, 2007 — March 31, 2008
                                                                        Semiannual Report to Congress




Appendix A: Resolving Audit Recommendations
The following chart summarizes SSA’s responses to our recommendations for the recovery or
redirection of questioned and unsupported costs. Questioned costs are those costs that are challenged
because of a violation of law, regulation, etc. Unsupported costs are those costs that are questioned
because they are not justified by adequate documentation. This information is provided in accordance
with P.L. 96- 304 (the Supplemental Appropriations and Recession Act of 1980) and the Inspector
General Act of 1978, as amended.

                  Reports with Questioned Costs for the Reporting Period
                                  October 1, 2007 – March 31, 2008

                                                                            Value             Value
                                                            Number
                                                                          Questioned       Unsupported
  A.	For which no management decision had been
     made by the commencement of the reporting                  19         $668,156,829        $106,173
     period.
  B.	Which were issued during the reporting
                                                                 9a        $630,347,679       $1,789,163
     period.

      	 Subtotal (A + B)                                        28        $1,298,504,508      $1,895,336


  	 Less:

  C.	For which a management decision was made
                                                                15         $649,368,743         $72,736
     during the reporting period.

  	 i.	 Dollar value of disallowed costs.                       14         $647,428,581         $72,736


  	 ii.	 Dollar value of costs not disallowed.                   1           $1,940,162              $0

  D.	For which no management decision had been
                                                                13         $649,135,765       $1,822,600
     made by the end of the reporting period.


­a. 	 See Reports with Questioned Costs in Appendix B of this report.




October 1, 2007 — March 31, 2008                                                              Appendices  • 37
                                                                                                            37
         Semiannual Report to Congress




         The following chart summarizes SSA’s response to our recommendations that funds be put to
         better use through cost avoidances, budget savings, etc.


                         Reports with Recommendations that Funds Be Put to Better Use
                              Reporting Period October 1, 2007 – March 31, 2008

                                                                                              Number    Dollar Value
           A. For which no management decision had been made by the
                                                                                                5       $260,221,932
              commencement of the reporting period.

           B.	 Which were issued during the reporting period.                                   7a       $309,539,943


           		        Subtotal (A + B)                                                           12       $569,761,875


                   	 Less:

           C.	 For which a management decision was made during
               the reporting period.
             i. Dollar value of recommendations that were agreed to
                by management.

                   (a) Based on proposed management action.                                     5        $256,106,684


                   (b) Based on proposed legislative action.                                    0                 $0


             ii.	 Dollar value of costs not agreed to by management.                            0                 $0


           		        Subtotal (i + ii)                                                          5        $256,106,684

           D.	For which no management decision had been made by the end of
                                                                                                7        $313,655,191
              the reporting period.


            ­a.	     See Reports with Funds Put to Better Use in Appendix B of this report.




38 •  Appendices
38                                                                                 October 1, 2007 — March 31, 2008
                                                            Semiannual Report to Congress




Appendix B: Reports Issued
                       Reports with Non-Monetary Findings
                           October 1, 2007 – March 31, 2008
Audit Number                                Report                                 Issue Date
                 The Effectiveness of the Social Security Administration’s 800-
 A-02-07-17049                                                                     10/19/2007
                 Number Automation Service
                 Follow-up on the Social Security Administration’s Monitoring of
 A-14-07-17102                                                                     10/29/2007
                 Potential Employee Systems Security Violations
                 Management Advisory Report: Single Audit of the Common-
 A-77-08-00002                                                                     11/1/2007
                 wealth of Massachusetts for the Fiscal Year Ended June 30, 2006
                 Inspector General Statement on the Social Security
 A-02-08-18061                                                                     11/7/2007
                 Administration’s Major Management Challenges
 A-15-07-17124   Fiscal Year 2007 Financial Statement Audit Oversight              11/7/2007
                 Social Security Administration’s Controls over Redisclosure of
 A-07-07-17055                                                                     11/28/2007
                 Sensitive Information in the Kansas City Region
                 Management Advisory Report: Single Audit of the State of
 A-77-08-00003                                                                     11/28/2007
                 Washington for Fiscal Year Ended June 30, 2006
                 Management Advisory Report: Single Audit of the State of
 A-77-08-00004                                                                     11/28/2007
                 Wisconsin for Fiscal Year Ended June 30, 2006
                 Management Advisory Report: Single Audit of the State of
 A-77-08-00005                                                                     11/28/2007
                 Colorado for Fiscal Year Ended June 30, 2006
                 Controls for Issuing Social Security Number Verification
 A-04-07-27112                                                                     12/5/2007
                 Printouts
                 Management Advisory Report: Single Audit of the State of
 A-77-08-00006                                                                     12/21/2007
                 Alabama for Fiscal Year Ended June 30, 2006
                 Management Advisory Report: Single Audit of the State of New
 A-77-08-00007                                                                     12/21/2007
                 Jersey for Fiscal Year Ended June 30, 2006
                 Congressional Response - Unimplemented Audit
 A-15-08-28105                                                                     1/31/2008
                 Recommendations Since January 2001
                 Compliance with Disability Determination Services Security
 A-05-07-17082                                                                     2/6/2008
                 Review Requirements
 A-07-07-17072   Administrative Law Judges’ Caseload Performance                   2/6/2008
                 Management Advisory Report: Single Audit of the State of
 A-77-08-00008                                                                     2/13/2008
                 Illinois for Fiscal Year Ended June 30, 2006
                 Management Advisory Report: Single Audit of the State of New
 A-77-08-00009                                                                     2/13/2008
                 York for Fiscal Year Ended March 31, 2006
                 Management Advisory Report: Single Audit of the State of
 A-77-08-00010                                                                     2/13/2008
                 Connecticut for Fiscal Year Ended June 30, 2006
 A-15-07-17061   Process for Awarding Sole Source Acquisitions                     2/14/2008
                 Administrative Costs Claimed by the Alabama Disability
 A-08-07-17151                                                                     2/29/2008
                 Determination Service

October 1, 2007 — March 31, 2008                                                      Appendices  • 39
                                                                                                    39
         Semiannual Report to Congress




                               Reports with Non-Monetary Findings
                                  October 1, 2007 — March 31, 2008

          Audit Number                               Report                                Issue Date

                           Administrative Costs Claimed by the Connecticut Disability
           A-15-07-27176                                                                   2/29/2008
                           Determination Services

                           Partnership for Strong Families, an Organizational
           A-04-07-17084                                                                   3/14/2008
                           Representative Payee for the Social Security Administration

                           The Appeals Process for Medicare Part D Low-Income
           A-06-08-18005                                                                   3/14/2008
                           Subsidy Eligibility Determinations


           A-08-07-17143   Follow-up: Assessment of the Enumeration at Entry Process       3/20/2008

                           Performance Review of the Social Security Administration’s
           A-15-08-28012   Contract with E-Structors, Inc. For the Disposal of Sensitive   3/20/2008
                           Documents (Limited Distribution)
                           Management Advisory Report: Single Audit of the
           A-77-08-00011   Commonwealth of Puerto Rico Department of the Family for        3/28/2008
                           the Fiscal Year Ended June 30, 2004
                           Management Advisory Report: Single Audit of the
           A-77-08-00012   Commonwealth of Puerto Rico Department of the Family for        3/28/2008
                           the Fiscal Year Ended June 30, 2005
                           Follow-up: The Social Security Administration’s
           A-13-07-17074   Management of Its Federal Employees’ Compensation Act           3/31/2008
                           Program




40 •  Appendices
40                                                                 October 1, 2007 — March 31, 2008
                                                              Semiannual Report to Congress




                              Reports with Questioned Costs
                          October 1, 2007 — March 31, 2008

Audit Number Issue Date                           Report                       Dollar Amount

                                Controls over Miscellaneous Payments
 A-09-07-17119   10/25/2007                                                        $105,690,039
                                Made Through the Single Payment System

                                Management Advisory Report: Single
 A-77-08-00001   11/1/2007      Audit of the State of Florida for the Fiscal            $47,065
                                Year Ended June 30, 2006

                                Social Security Administration Employees
 A-01-07-27116   12/12/2007                                                            $245,311
                                Receiving Benefits


                                Administrative Costs Claimed by the Rhode
 A-01-06-15069   12/13/2007                                                           $1,751,060
                                Island Disability Determination Services

                                The Social Security Administration’s
                                Income and Resource Verification Process
 A-06-06-16135   2/19/2008                                                         $473,494,350
                                for Individuals Applying for Help with
                                Medicare Prescription Drug Plan Costs
                                Follow-up on the Impact on the Social
                                Security Administration’s Programs When
 A-01-07-17038   3/14/2008                                                            $7,577,002
                                Auxiliary Beneficiaries Do Not Have Their
                                Own Social Security Numbers

                                Adjustment of Disabled Wage Earners’
 A-09-07-17134   3/14/2008                                                           $43,074,961
                                Benefits at Full Retirement Age

                                The District of Columbia Disability
                                Determination Division’s Internal Controls
 A-15-08-18019   3/20/2008                                                             $224,354
                                over the Accounting and Reporting of
                                Administrative Costs
                                The Henry Ittleson Center - An
 A-02-07-27077   3/27/2008      Organizational Representative Payee for the             $32,700
                                Social Security Administration


                                       TOTAL                                       $632,136,842




October 1, 2007 — March 31, 2008                                                    Appendices  • 41
                                                                                                  41
         Semiannual Report to Congress




                                Reports with Funds Put to Better Use
                                   October 1, 2007 — March 31, 2008

        Audit Number     Issue Date                         Report                         Dollar Amount

                                         Social Security Administration Employees
         A-01-07-27116   12/12/2007                                                              $124,176
                                         Receiving Benefits

                                         The Social Security Administration’s Ability
         A-15-07-17095    1/11/2008      to Reach Individuals Using the Social Security        $1,911,000
                                         Statement

                                         Adjustment of Overpayment Balances Related
         A-04-07-17028    1/22/2008                                                           $14,040,881
                                         to Title II Critical Payments

                                         The Social Security Administration’s Income
                                         and Resource Verification Process for
         A-06-06-16135    2/19/2008                                                          $223,594,840
                                         Individuals Applying for Help with Medicare
                                         Prescription Drug Plan Costs

                                         Adjustment of Disabled Wage Earners’ Benefits
         A-09-07-17134    3/14/2008                                                           $68,088,960
                                         at Full Retirement Age


                                         Administrative Costs Claimed by the
         A-09-07-17103    3/20/2008                                                            $1,516,055
                                         Washington Disability Determination Services

                                         The District of Columbia Disability
                                         Determination Division’s Internal Controls over
         A-15-08-18019    3/20/2008                                                              $264,031
                                         the Accounting and Reporting of Administrative
                                         Costs

                                               TOTAL                                         $309,539,943




42 •  Appendices
42                                                                October 1, 2007 — March 31, 2008
                                                                Semiannual Report to Congress




Appendix C: Reporting Requirements Under the
Omnibus Consolidated Appropriations Act of FY 1997
To meet the requirements of the Omnibus Consolidated Appropriations Act of 1997, P.L. 104-208,
we are providing requisite data for the first half of FY 2008 from the Offices of Investigations and
Audit in this report.
Office of Investigations
We are reporting over $38 million in SSA funds as a result of our investigative activities in this
reporting period. These funds are broken down in the table below.

                                Investigative Activities

                         1st Quarter             2nd Quarter                 Total

  Court Ordered
                               $5,731,555              $5,903,778             $11,635,333
   Restitution

    Recoveries                $13,420,798             $10,156,052             $23,576,850

       Fines                     $990,585              $1,392,621              $2,383,206

   Settlements/
                                 $305,704                $299,826                $605,530
    Judgments

     TOTAL                   $20,448,642             $17,752,277             $38,200,919


Office of Audit
SSA management has informed us that it has completed implementing recommendations from
11 audit reports during this time period valued at over $2.6 billion.

Social Security Administration Employees Receiving
Benefits
(A-01-07-27116, 12/12/2007)
No Recommendation – SSA took action during the audit on actual findings. The implemented
value of this recommendation is $124,176.




October 1, 2007 — March 31, 2008                                                            Appendices  • 43
                                                                                                          43
         Semiannual Report to Congress




          An Individual Representative Payee for the Social
          Security Administration in the San Francisco Region
          (A-09-07-17063, 7/3/2007)
          We recommended that SSA ensure that the Representative Payee use actual rather than estimated
          expenses to complete the Representative Payee Reports for all beneficiaries in its care. The
          implemented value of this recommendation is $3,349.

          Contract for the Migration of I.Levy Software at
          Disability Determination Services (Limited Distribution)
          (A-07-07-17033, 5/24/2007)
          We recommended that SSA continue to monitor the interest payments made on contracts and
          make additional improvements to its oversight process, when appropriate. The implemented
          value of this recommendation is $3,000.

          Adjustment of Widow’s Insurance Benefits at Full
          Retirement Age (A-01-07-27122, 5/14/2007)
          We recommended that SSA review the 10,210 cases in our population and take action to pay
          the additional amounts due the widows. The implemented value of this recommendation is
          $137,808,597.

          Administrative Costs Claimed by the Commonwealth
          of Puerto Rico Disability Determination Program
          (A-06-06-16117, 3/26/2007)
          We recommended that SSA ensure unliquidated obligations totaling $465,323 in FY 2004 and
          $641,927 in FY 2005 are reviewed and obligations no longer valid are deobligated.

          Direct Deposits for Multiple Title XVI Recipients
          into the Same Bank Account (A-02-06-25141, 3/23/2007)
          We recommended that SSA pursue recovery efforts, as warranted, for overpayments identified
          in this report. The implemented value of this recommendation is $264,390.

          Government Pension Offset Exemption for Texas School
          Districts’ Employees (A-09-06-26086, 1/08/2007)
          We recommended that SSA reexamine the decisions to grant an exemption from Government
          Pension Offset (GPO) for the 168 spouses in our sample. We also recommended that SSA



44 •  Appendices
44                                                                 October 1, 2007 — March 31, 2008
                                                               Semiannual Report to Congress




identify and reexamine any decisions to grant exemptions from GPO for spouses in the population
of 20,248 1-day workers employed by the 7 school districts. We also recommended that SSA
review the 1-day worker programs at the other eight Texas independent school districts identified
in the allegation to determine whether their 1-day workers programs would result in inappropriate
GPO exemptions. The implemented value of these recommendations are $2,537,391,759.

Supplemental Security Income Recipients Whose
Medicare Benefits Were Terminated Due to Death
(A-01-06-26105, 11/14/2006)
We recommended that SSA review the cases in our audit population and take appropriate action
to terminate the Supplemental Security Income (SSI) payments for the deceased individuals and
remove the erroneous death information for those individuals who are alive and reinstate their
Medicare benefits. The implemented recommendation is valued at $237,103.

Survivor Benefits Paid in Instances When the Social
Security Administration Removed the Death Entry
from a Primary Wage Earner’s Record (A-06-06-26020,
9/26/2006)
We recommended that SSA perform death verifications for each of the 307 records with survivor
benefit payments identified in the report and take appropriate action. The implemented value of
this recommendation is $4,600,155.

Impact of Statutory Benefit Continuation on
Supplemental Security Income Payments Made During
the Appeals Process (A-07-05-15095, 5/10/2006)
We recommended that SSA remind SSA components of the proper procedures for terminating
SSI benefits following medical cessation decisions. The implemented value of this recommendation
is $13,869,533.

Collection of Old-Age, Survivors and Disability
Insurance Overpayments to Representative Payees for
Deceased Beneficiaries (A-13-03-13049, 7/21/2004)
We recommended that SSA identify and refer all eligible delinquent representative payee OASDI
overpayment debts to Treasury’s Financial Management Service for tax refund and administrative
offset. The implemented value of this recommendation is $2,278,241.




October 1, 2007 — March 31, 2008                                                         Appendices  • 45
                                                                                                       45
         Semiannual Report to Congress




           Appendix D: Significant Management Decisions
           With Which the Inspector General Disagrees
           Controls for Issuing Social Security Number
           Verification Printouts (A-04-07-27112, 12/5/2007)
           Results of Review: Our objective was to determine whether SSA’s internal controls over
           the issuance of Social Security Number (SSN) Verification Printouts (SSN Printout) were
           effective. In FY 2006, SSA issued about 6.34 million SSN Printouts. The SSN Printout
           contains the same basic information as the Social Security card. Accordingly, controls over
           the issuance of these documents should be adequate to ensure the individual requesting an
           SSN Printout is the correct numberholder. However, we found that SSA’s controls over the
           issuance of these sensitive documents were much less stringent than for Social Security cards.
           Because SSA believed the Privacy Act allows numberholders a right to this information—
           without placing undue burden on the requestor—the Agency disagreed with several of our
           recommendations, which were designed to strengthen controls within the SSN Printout
           issuance process.
           Recommendation: We encouraged the Agency to issue a reminder to field office staff that
           SSN Printouts should only be issued when the numberholder expresses an immediate need
           for a verification of the SSN.
           Agency Response: SSA disagreed. The Agency stated that its current policy does not dictate
           that the numberholder express an “immediate need” for this information, and the Privacy Act
           protects an individual’s right to access his or her records. Furthermore, OMB’s Privacy Act
           guidelines indicate that the granting of access may not be conditioned upon any requirement
           to state a reason or otherwise justify the need to gain access to a particular record.




46 •  Appendices
46                                                                   October 1, 2007 — March 31, 2008
                                                                           Semiannual Report to Congress




Appendix E: Collections from Investigations and
Audits
The Omnibus Consolidated Appropriations Act of 1997 (P.L. 104-208) requires us to report
additional information concerning actual cumulative collections and offsets achieved as a
result of OIG activities each semiannual period.


Office of Investigations

             Total Restitution Reported by DOJ as Collected for SSA

                      Total Number
                                                    Court Ordered
                       of Individuals                                        Total Restitution
        FY                                          Restitution for
                      Assigned Court                                         Collected by DOJ
                                                     This Period
                    Ordered Restitution
       2006                    578                           $18,817,909                $1,447,402

       2007                    655                           $26,435,626                 $898,7641

       2008                    318                           $11,635,333             See Footnote 2

   TOTAL                      1,551                        $56,888,868                  $2,346,166

   Reflects collection for October 1, 2006– June 30, 2007.
   1


   2
       DOJ advised it is currently migrating collection data to a new computer system and the data
       is unavailable at this time. Last available collection data is for the period ending June 30, 2007.




                      Recovery Actions Based on OI Investigations

                            Total Number of Recovery
             FY                                                       Amount for Recovery
                                Actions Initiated

           2006                           1,865                                      $35,492,314

           2007                           2,514                                      $44,081,776

           2008                           1,131                                      $23,576,850

         TOTAL                            5,510                                    $103,150,940


October 1, 2007 — March 31, 2008                                                                        Appendices  • 47
                                                                                                                      47
            Semiannual Report to Congress




     Office of Audit
     The following chart summarizes SSA’s responses to our recommendations for the recovery or
     redirection of questioned and unsupported costs. This information is prepared in coordination
     with SSA’s management officials and was current as of March 31, 2008.


                                  SSA’s Responses to OIG’s Recommendations
                          Recovery or Redirection of Questioned and Unsupported Costs
                Reports with     Questioned/                                               Amount
                                                     Management        Amount Collected
        FY      Questioned       Unsupported                                              Written-Off/                Balance
                                                     Concurrence       or to be Recovered
                   Costs            Costs                                                 Adjustments

       2006          24          $1,373,740,596     $1,245,415,125       $1,235,508,053       $129,567,145             $8,665,398


       2007          36         $1,261,104,0451       $865,934,681         $493,510,844      $362,660,638            $404,932,563


       2008           9           $632,136,842           $3,556,026           $3,331,672                 $0          $628,805,170


     TOTAL           69        $3,266,981,483 $2,114,905,832 $1,732,350,5692                $492,227,783       $1,042,403,131


        1
         This dollar amount shows an increase in Questioned Costs due to new findings in report, Supplemental
        Security Income Recipients Eligible as Disabled Adult Children Under the Old-Age, Survivors and Disability
        Insurance Program (A-13-07-17073).
        2
         The amounts in the table regarding collections, recoveries, and write-offs/adjustments were not verified
        by the OIG.




48 •  Appendices
48                                                                               October 1, 2007 — March 31, 2008
                                                               Semiannual Report to Congress




Appendix F: Significant Monetary
Recommendations From Prior FYs for Which
Corrective Actions Have Not Been Completed
Impact of Statutory Benefit Continuation on
Disability Insurance Benefit Payments Made During
the Appeals Process (A-07-05-15094, 12/21/2006)
Results of Review: We evaluated the financial impact on the Disability Insurance (DI)
Trust Fund when beneficiaries continued receiving DI benefits while appealing a medical
cessation decision. We estimated that SSA paid approximately $86.4 million in DI benefits
to beneficiaries who received an appeals decision from an ALJ between October 1, 2002
– September 30, 2004. Of this amount, we projected that about $43.9 million became
overpayments when an ALJ reaffirmed that the beneficiary was no longer eligible to receive
DI benefits.
Recommendation: SSA enhance the business process to allow more timely decisions on
medical cessation appeals.
Valued at: $44,997,323 in funds put to better use.
Agency Response: SSA agreed with the recommendation.
Corrective Action: Improvements to the timely processing of medical cessation cases involving
benefit continuation should be done. However, in making such improvements, consideration
should be given to current staffing levels and the ability to maintain the timely processing
of other priority workloads. A balanced approach in managing all workloads with an eye
on receipt patterns is important while making enhancements to improve the processing of
medical cessation appeals.
ODAR is working with the Office of Systems to generate alerts for both paper and
electronic cases to ensure that claimants whose benefits should be terminated are
processed in a timely manner. ODAR also plans to modify the relevant instructions once
the additional automation measures are in place. In addition, ODAR is working on an
electronic CDR process that will further enhance the hearing offices’ ability to decide
medical cessations more timely.




October 1, 2007 — March 31, 2008                                                         Appendices  • 49
                                                                                                       49
         Semiannual Report to Congress




            Impact of Statutory Benefit Continuation on
            Supplemental Security Income Payments made During
            the Appeals Process (A-07-05-15095, 5/10/2006)
            Results of Review: We evaluated the financial impact on the General Fund when recipients
            continued receiving Supplemental Security Income (SSI) payments while appealing a medical
            cessation decision. We estimated that SSA paid over $199 million in SSI payments to recipients
            who received an appeals decision from ODAR (formerly the Office of Hearings and Appeals)
            between October 1, 2002 – September 30, 2004. Of this amount, about $146 million became
            overpayments when Office of Hearings and Appeals reaffirmed the recipient was no longer
            eligible to receive SSI payments.
            Recommendation: Enhance the business process to allow more timely decisions on medical
            cessation appeals.
            Valued at: $158,778,983 in funds put to better use.
            Agency Response: SSA agreed with the recommendation.
            Corrective Action: Enhancing the business process may allow for improved stewardship
            and more timely decisions regarding SSI cessation cases and benefit continuation during the
            appeal period. SSA intends to decrease processing time in all disability appeals through the
            implementation of eDib and the new disability regulations.
            Processing times reflected in the report indicate that SSA is following the regulations and ALJs
            are following HALLEX guidelines that include assignment of continuing benefit disability
            cessation cases as 7th of 11 categories of priority cases they may be processing. There are
            significant reasons for the categorization of these priorities, and SSA cannot justify moving this
            category of cases ahead of the others. Although SSA recognizes its responsibility to stewardship,
            the Agency must at times balance that against service obligations. Therefore, at this time, SSA
            is not in a position to support segregating cases that are receiving benefit continuation and
            processing those cases first.

            Significant Monetary Recommendations From Prior
            Semiannual for Which Recent Corrective Action Has
            Been Made
            Impact of Statutory Benefit Continuation on Supplemental Security
            Income Payments Made During the Appeals Process (A-07-05-15095,
            5/10/2006)

            Recommendation: Remind SSA components of the proper procedures for terminating SSI
            benefits following medical cessation decisions.
            Valued at: $13,869,533 in funds put to better use.


50 •  Appendices
50                                                                    October 1, 2007 — March 31, 2008
                                                                    Semiannual Report to Congress




Appendix G: Significant Non-Monetary
Recommendations From Prior FYs for Which
Corrective Actions Have Not Been Completed
The Social Security Administration’s Program For
Issuing Replacement Social Security Cards to Prisoners
(A-08-06-16025, 7/13/2006)
Results of Review: In response to the Intelligence Reform and Terrorism Prevention Act of
2004, SSA implemented policies that require applicants for replacement Social Security
cards to produce specific identity documents. However, prisoners are not always able to
produce such documents. To assist these prisoners, SSA field offices may enter into written
agreements or Memoranda of Understanding (MOU) with prisons, which allow authorized
prison officials to certify that they have extracted relevant information from the official prisoner
record to verify the prisoner’s identity. While some prison officials attempted to comply with
this requirement, we observed that some did not. As a result of our review, we made several
recommendations.
Recommendation: Perform a review at each prison with which it is considering executing an
MOU to ensure its procedures for establishing prisoner identity are sufficient to ensure SSN
integrity and compliance with the intent of the Intelligence Reform and Terrorism Prevention
Act of 2004.
Agency Response: SSA agreed with the recommendation. The Agency formed a workgroup
to address this recommendation and other issues dealing with the enumeration of prisoners.
The workgroup will provide the appropriate support to implement this recommendation.
Corrective Action: In January 2007, SSA employees visited a Federal prison in Petersburg,
Virginia to observe the prisoner intake process and discuss the types of documents used to
identify a Federal prisoner. Based on this visit, the workgroup agreed on a prisoner enumeration
process covering all Federal facilities. The Agency has made significant progress in completing an
MOU with the Bureau of Prisons. The workgroup has reconvened and is currently developing
policy and procedures to cover State and local facilities.
Recommendation: Require that field offices perform annual on-site reviews of prison
procedures for submitting prisoner replacement SSN applications and required evidence
and take corrective action as needed
Agency Response: SSA agreed with the recommendation.
Corrective Action: SSA agreed in principle that periodic onsite reviews of prisons would be a
good idea. The prisoner enumeration workgroup is investigating this issue to determine what
is practical given the limited resources in the region and field offices.



October 1, 2007 — March 31, 2008                                                                Appendices  • 51
                                                                                                              51
     Semiannual Report to Congress




52                                   October 1, 2007 — March 31, 2008
                                                            Semiannual Report to Congress




Glossary of Acronyms
ALJ                                Administrative Law Judge
ATM                                Automated Teller Machine
CDI                                Cooperative Disability Investigative Program
CMP                                Civil Monetary Penalty
DCN                                Double Check Negotiation
DDS                                Disability Determination Services
DHS                                Department of Homeland Security
DOJ                                Department of Justice
EAE                                Enumeration at Entry
FEMA                               Federal Emergency Management Agency
FLEOA                              Federal Law Enforcement Officers Association
FRA                                Full Retirement Age
FY                                 Fiscal Year
GPO                                Government Pension Offset
HHS                                Department of Health and Human Services
HUD                                Department of Housing and Urban Development
ID                                 Identification card
IO                                 Immediate Office
IRS                                Internal Revenue Service
IT                                 Information Technology
MBR                                Master Beneficiary Record
MOU                                Memorandum of Understanding
OA                                 Office of Audit
OASDI                              Old-Age, Survivors, and Disability Insurance
OCCIG                              Office of the Chief Counsel to the Inspector General
ODAR                               Office of Disability Adjudication and Review
OI                                 Office of Investigations
OIG                                Office of the Inspector General
SPS                                Single Payment System
the Act                            Social Security Act
SSA                                Social Security Administration
SSI                                Supplemental Security Income
SSN                                Social Security Number
USAO                               U.S. Attorney’s Office
USMS                               U.S. Marshals Service


October 1, 2007 — March 31, 2008                                                          Glossary • 53
Social Security Administration
Office of The Inspector General




                                                                                         How to Report Fraud
                                                                       The SSA OIG Fraud Hotline offers a means for you to provide
                                                                      information on suspected fraud, waste, and abuse. If you know of
                                                                      current or potentially illegal or improper activities involving SSA
                                                                      programs or personnel, we encourage you to contact the SSA OIG
                                                                                                 Fraud Hotline.

                        Mission Statement
      By conducting independent and objective audits, evaluations                Call	    1-800-269-0271
         and investigations, we inspire public confidence in the
        integrity and security of SSA’s programs and operations                Write	     Social Security Administration
          and protect them against fraud, waste and abuse. We         	                   Office of the Inspector General
      provide timely, useful and reliable information and advice to   	                   Attention: SSA Fraud Hotline
           Administration officials, Congress and the public.         	                   P. O. Box 17768
                                                                      	                   Baltimore, MD 21235
                        Vision and Values
                                                                                 Fax	     410-597-0118
        We strive for continual improvement in SSA’s programs,
      operations and management by proactively seeking new ways
        to prevent and deter fraud, waste and abuse. We commit               Internet www.socialsecurity.gov/oig
        to integrity and excellence by supporting an environment
        that provides a valuable public service while encouraging     To obtain additional copies of this report please visit our web site
      employee development and retention and fostering diversity                        at www.socialsecurity.gov/oig
                             and innovation.


                                                                                              SSA Pub. No. 85-007
     Social Security Administration
      Office of the Inspector General

Semiannual Report to Congress
       October 1, 2007 – March 31, 2008
